<html>
<title> - REVIEW OF THE 2015 TRAFFICKING IN PERSONS REPORT</title>
<body><pre>[Senate Hearing 114-808]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-808

            REVIEW OF THE 2015 TRAFFICKING IN PERSONS REPORT

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 6, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


       Available via the World Wide Web: https://www.govinfo.gov


                  U.S. GOVERNMENT PUBLISHING OFFICE                    
34-921 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8fe8ffe0cfecfafcfbe7eae3ffa1ece0e2a1">[email&#160;protected]</a>    



                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                 Lester Munson, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Bob Corker, U.S. Senator From Tennessee.....................     1
Hon. Benjamin L. Cardin, U.S. Senator From Maryland..............     3
Hon. Robert Menendez, U.S. Senator From New Jersey...............     5
Hon. Sarah Sewall, Under Secretary for Civilian Security, 
  Democracy, and Human Rights, U.S. Department of State, 
  Washington, DC.................................................     7
    Prepared Statement...........................................     9

              Additional Material Submitted for the Record

Press Release/From the Malaysian Bar, July 22, 2015..............    27
Response of Under Secretary Sarah Sewall to Question Submitted by 
  Senator Corker.................................................    28
Responses of Under Secretary Sarah Sewall to Questions Submitted 
  by
  Senator Benjamin L. Cardin.....................................    29
Responses of Under Secretary Sarah Sewall to Questions Submitted 
  by
  Senator Marco Rubio............................................    31
Responses of Under Secretary Sarah Sewall to Questions Submitted 
  by
  Senator Robert Menendez........................................    35

                                 (iii)

  

 
                    REVIEW OF THE 2015 TRAFFICKING 
                           IN PERSONS REPORT

                              ----------                              


                        THURSDAY, AUGUST 6, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senators Corker, Johnson, Cardin, and Menendez.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Senate Foreign Relations Committee will 
come to order.
    Before I move into the business at hand--I know the Senate 
floor is closed today--I just want to say how disappointed I 
was in the President's comments yesterday relative to Iran.
    I know that we have questions about the TIP Report and 
trafficking, and I wonder if, because we have questions and 
concerns about trafficking, it throws us into a category of 
being bad people.
    I thought for the President's comments yesterday relative 
to Iran, I just want to put things in perspective. Before we 
had a 19-0 committee vote here, the White House had a veto 
threat against us weighing in on the Iran deal, a threat up 
until an hour and a half until that vote took place, because 
they did not want a public debate on Iran.
    Obviously, the committee chose otherwise. We passed it out 
on a 19-0 vote. Everyone here voted for it. But they did not 
want the issue debated.
    What the President did yesterday, by saying that Senator 
Cardin, a ranking member who has questions about the Iran deal, 
Senator Menendez, who has questions about the Iran deal--by the 
way, both of which voted against the Iraq war, if I remember 
correctly--Senator Johnson, who has concerns about the Iran 
deal, we are being compared to the hardliners in Iran because 
we have concerns, concerns that we are trying to have answered.
    Just a few months ago, the President publicly was talking 
about what a thoughtful, principled person I was. I have to get 
the quote someplace. But now because I have concerns--and I 
think everyone has concerns, and people are going to have to 
make a decision; this is going to be one of the toughest 
decisions--but he is trying to shut down debate by saying those 
who have questions legitimate questions--legitimate questions--
are somehow unpatriotic, are somehow compared to hardliners in 
Iran.
    And again, it is to shut down debate. It is to make this 
about something other than arguing it on the merits of the 
deal.
    So I am very disappointed.
    I know Senator Cardin was meeting with the President last 
night. I do want to say, Senator, I wish that you had been 
there last night to hear the discussion about Parchin. Wendy 
Sherman said yesterday in Banking she would come share with us 
how Parchin--how that arrangement was working. I called her 
early this morning to ask her if she would at least, at a 
minimum, let us have her notes from when she was briefed by the 
IAEA.
    And I am beginning to believe that one of the reasons they 
do not want people to know, it is not about Iran's 
confidentiality. I do not think it would stand the test of 
late-night comedy, if people understood how the Parchin thing 
was being done.
    So I just hope that today--we thank Sarah Sewall for being 
here--the fact that we have concerns about trafficking, that 
again on a unanimous vote we voted to end modern slavery in 
this world--that somehow we will be viewed as people who are 
unpatriotic, be viewed as people that somehow are not serious 
about this issue?
    So today, we are going to examine the recently released 
2015 State Department Trafficking in Persons Report. This 
year's report has attracted significant interest because of 
controversy over how tier rankings were made regarding certain 
countries including India, China, Malaysia, Saudi Arabia, Cuba, 
and Mexico.
    We thank Under Secretary of State Sarah Sewall for 
testifying today, so she can explain these tier rankings to the 
committee.
    If it is true that the administration politicized this 
report, there are questions about why they chose to 
significantly diminish a tool that has been effective in 
fighting slavery around the world. If we are actually going to 
end modern slavery, we need to take on the hard questions and 
work harder.
    How we make the tough calls matters. The integrity of the 
TIP Report matters for our country's credibility when we speak 
up for the powerless and the oppressed.
    The State Department and our Nation will be judged by how 
State Department leaders make tough calls on the TIP Report's 
tier rankings. The State Department's behind-closed-doors tier 
ranking process only muddies the water.
    We in Congress and everyone in the State Department and 
other parts of our government are responsible for implementing 
the Trafficking Victims Protection Act. Each year, the TIP 
Report makes recommendations for progress and turns these into 
tailored action plans for our embassies. Rigorously applied TIP 
action plans should inform the tough calls on tier rankings.
    In releasing the 2015 TIP Report, Secretary Kerry said 
that--bottom line--this is no time for complacency. I am not 
convinced. I hope I will not be criticized for this or that I 
will be ridiculed for this. I am not convinced that this report 
lives up to that statement.
    As many as 27 million human beings live in conditions of 
modern slavery. We need to be serious about this for their 
sake.
    With that, I would like to recognize our distinguished 
ranking member, Senator Cardin, who I respect greatly, and 
really appreciate his commitment--his long-term commitment--to 
ensuring that human rights are honored and that we deal with 
issues like this in a way that is full of integrity.
    Thank you.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Mr. Chairman, first, thank you for 
convening this hearing.
    In regards to your opening comments, I want you to know, I 
think you continue and have always been a thoughtful, 
principled person. I want you to know that. And I respect 
greatly your leadership on this committee and the manner in 
which we have been able to work together.
    The Chairman. Hopefully, if I disagree with you once, you 
will not compare me to the hardliners in Iran.
    Senator Cardin. I am still going through the review 
process. I have not reached a decision on the vote that will 
take place when we return in September. I want to underscore a 
point that Senator Corker and I, working with our leadership, 
encouraged our leadership to provide for the debate on the 
floor of the United States Senate that we think is befitting 
this critical issue.
    So yesterday, without any objection, we moved onto the 
bill. When we come back in September, we are not going to have 
to go through a cloture vote. We are not going to have to go 
through any procedure hurdles. We will be on the bill.
    At that point, I expect the majority leader will put 
forward the bill that we will be voting on, and we will be 
right on that debate when we return, and we can use that week, 
I hope, to debate this issue. And each Member of the United 
States Senate will make up his or her mind as to what he or she 
thinks is in the best interest of this country.
    I did not interpret from the President's remarks that he is 
challenging any of our independent judgments on this. You are 
correct. I voted against the Iraq war. I do not see a 
comparison between this vote and the Iraq vote.
    The interesting thing, just to make a sidebar on this, I 
voted against the Authorization for Use of Military Force in 
Iraq. And in my district, it was a congressional district, not 
State, at the time, it was overwhelmingly unpopular. 
Overwhelmingly. It was not a close call. It was one of the most 
consequential votes that I cast in my career in the House. And 
it was interpreted to have an impact on my reelection.
    This is not the case when it comes to this vote. There are 
divided views in this country on this issue. This is not a 
clear situation where the popular view is to support the 
President or to oppose the President.
    There are very strong views on both sides. Do not get me 
wrong. But here, we are not authorizing the use of military 
force.
    So I disagree with the President's interpretation on that 
issue. Having said that, I do not disagree with the President's 
strong statement. He is clearly doing what we would expect the 
President of the United States to do, show strength in his 
position and taking the case to the American people.
    So I do not join my good friend and principled leader of 
this committee in the interpretation of the President's 
remarks.
    One of the most important responsibilities of this 
committee is oversight. We have passed a lot of laws, but are 
those laws being carried out in the way that they should?
    Today's hearing is an oversight hearing on an extremely 
important subject. We have a very distinguished witness today, 
our administrative spokesperson on this. She has a long, 
distinguished career in promoting human rights and dealing with 
trafficking.
    I just want you to know that, Ms. Sewall, you come to this 
committee with great credibility, and we thank you for your 
public service.
    Trafficking is modern-day slavery. We have a moral 
imperative to speak out against trafficking. It involves labor 
servitude. It involves sex trafficking. And it financing 
criminal activities. The ILO estimates that it brings in about 
$150 billion a year for illegal activities. It affects children 
who are victims of trafficking. The number of victims who are 
robbed of their future, the chairman mentioned is in the high 
20 millions. We have had estimates anywhere from 20 million 
victims to 36 million victims of trafficking.
    And they are victims. We have an obligation to deal with 
this.
    I am proud of the leadership our country has shown on this 
issue. For a long time, working with the U.S. Helsinki 
Commission, we took it upon ourselves to not only develop laws 
in America, but to show international leadership in the OSCE 
countries. We now have special representatives. We have reports 
every year on trafficking. We share the best practices. Why? 
Because of U.S. leadership, and because of what we have done in 
this country.
    This year we celebrated the 15th anniversary of the 
Trafficking Victims Protection Act. It was an incredible 
accomplishment by this Congress, and the United States, and 
leadership globally on this issue.
    As a result, we have the Trafficking in Persons Report, 
which is the gold standard. It is on my desk. I look at it 
before I meet with any representative of another country so I 
can go over their trafficking issues and I can make it clear 
that they have to make fighting trafficking a high priority in 
their country.
    So we take great pride in the leadership of our country.
    The 2015 report causes me concern. And I want to get 
answers today about the 2015 report. There are upgrades in this 
report that are hard to understand, and I put Malaysia number 
one on the list.
    Malaysia has a very serious labor trafficking problem. We 
know about it. We have documented it. In this report, Malaysia 
has been upgraded from Tier 3 to Tier 2 Watch List. A Tier 3 
country is a country that does not fully comply with the 
Trafficking Victims Protection Act minimum standards and does 
not make significant efforts to do so.
    So what has changed between the 2015 report and the 2014 
report in Malaysia? Well, there are a couple things that have 
changed. They have enacted amendments to their laws, but they 
have not carried them out or implemented them. Given the number 
of prosecutions, the conviction rate is ridiculously low.
    Just recently, beyond the window for inclusion in this 
report, mass graves of purported trafficking victims were 
discovered.
    There is one other thing that is new since last year. That 
is Congress passed Trade Promotion Authority. There is a 
concern whether that had an impact on Malaysia's upgrade.
    I hope it did not. But I tell you, we talked about it 
before the report came out. I just hope that we are using 
objective standards.
    There have been reports that have been made that there were 
high-level discussions that disagreed with the staff-level 
recommendations. I understand the decision is made at a high 
level, as it should be. But how much politics went into this? I 
hope zero, because the TIP Report is the gold standard.
    I could talk about concerns in Cuba, Uzbekistan, and other 
countries as well.
    So, Mr. Chairman, this is a very important hearing. This 
committee needs to make sure that the work we have done in this 
country, setting the global example for commitment against 
trafficking, remains credible and is always improving. Mr. 
Chairman, I have asked my staff, working with your staff, to 
listen to today's hearing. Do we need to strengthen the 
Trafficking Victims Protection Act? Do we need to have 
congressional direct oversight before you take a country off of 
Tier 3? Have we reached that point where we need to have a 
stronger law in this country?
    Those are some of the questions that I hope will be 
addressed today, so that this country can continue to lead in 
fighting the scourge of modern-day slavery.
    The Chairman. Senator Cardin, since this is somewhat 
unusual--I think most people have gone home--we probably are 
not going to have a very full process here at the committee. I 
do not know if any other committee members want to make some 
opening comments. We do not typically do that, but if it is 
okay with you, I would certainly be glad for that to occur.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Mr. Chairman, I appreciate the 
opportunity, because of the nature of the issue and the 
interest that I have had here. I want to start off by thanking 
you and the ranking member for supporting my call for hearings, 
because all of the concerns and reservations that Senator 
Cardin has expressed are mine and beyond.
    Mr. Chairman, I would like the consent to enter some 
background documents on Malaysian trafficking into the record, 
one from the Malaysian Bar Association, one from the 
international NGO Verite, and one from the United Nations.
    The Chairman. Without objection.

[Editor's note.--The document from the Malaysian Bar 
Association can be found in the ``Additional Material Submitted 
for the Record'' section at the end of this hearing. The 
documents from the United Nations and NGO Verite were too 
voluminous to include in the printed hearing and will be 
retained in the permanent record of the committee.]

    Senator Menendez. Mr. Chairman, in the State Department's 
own words, the Trafficking in Persons Report ``is the U.S. 
Government's principal tool to engage foreign governments on 
human trafficking.'' We are here today because the integrity of 
this year's report has been called into question, and that 
means our Nation's commitment to our most fundamental 
principles has been called into question.
    Secretary Kerry himself in his introduction to this year's 
report tells us that ``justice is not just a matter of having 
the right laws on the books. We have to back those words with 
resources, strategies, and actions that produce the right 
result.'' That is true here, and that should be our aspiration 
for the countries in the report.
    Sadly, I am convinced that this year we have not met that 
standard. Under your leadership, Mr. Chairman, human 
trafficking was one of the very first issues that we tackled at 
one of our first hearings, the first comprehensive piece of 
legislation reported from this committee. It demonstrated that 
it would be a priority for us. And I salute you for that.
    Subsequent hearings in the House and legislation on modern 
slavery led by Senator Cardin in April kept the issue at the 
top of our concerns. On the same day that legislation passed 
the Senate 99-0, the Finance Committee added my amendment to 
prohibit fast-track treatment for the worst human traffickers, 
those countries that the TIP Report ranks as Tier 3. That 
provision is now law, signed by President Obama as part of the 
Trade Promotion Authority.
    There can be no doubt that our fight against modern-day 
slavery is a bipartisan, bicameral commitment to put our 
principles in action. But several months ago, we began to hear 
reports both in the press and from sources close to this 
process that this year's TIP Report was under exceptional 
pressure to shape the rankings to meet political demands, not 
the facts on the ground.
    I am sorry to say that the rankings in this year's report, 
held up against the hard facts about human trafficking and 
compared to the conclusions from the most respected and 
authoritative sources, appear in many instances to be the 
result of external pressure, not the independence and integrity 
we expected when we created this process.
    Mr. Chairman, I will ask that the rest of my statement be 
included in the record, and I look forward to the opportunity 
to ask questions.
    The Chairman. Senator Johnson, are you good?
    Senator Johnson. I am fine.
    The Chairman. Our witness is Sarah Sewall, the Under 
Secretary of State for Civilian Security, Democracy, and Human 
Rights, who was sworn in on February 20, 2014. She serves 
concurrently as the special coordinator for Tibetan issues.
    Over the previous decade, she taught at Harvard Kennedy 
School of Government. During the Clinton administration, she 
served as Deputy Assistant Secretary of Defense for 
Peacekeeping and Humanitarian Assistance.
    I want to thank you for responding to the invitation today. 
I think everybody knows we tried to get the regionals in, 
because we felt like much of the pressure came from regionals 
to carry out maybe a different agenda. We were unable to do 
that. But we thank you very much for coming in today, and 
representing the administration's view on this. We thank you 
for your service to our country.
    And obviously, there is a lot of passion around this issue, 
because we have seen firsthand the effects of trafficking and 
slavery. We have seen young women who could be coeds here in 
our university system, we have seen them being sold into 
slavery and trafficked for sex. We have seen that. We have seen 
the effect on their families.
    We know what happens in fishing. We know what happens in 
brick kilns. We know what happens in rug manufacturing.
    These are human beings just like us, and they are being 
deprived of freedoms. Every sensibility that any human being 
can care about is threatened by this, and the fact that 
possibly, for other agenda items, our concern has been cast 
aside obviously concerns us.
    But we thank you for being here. We know you are 
representing the administration and none of this should be 
something that is directed at you personally, but as you can 
tell, there is a significant concern. Thank you.
    We look forward to your testimony.

 STATEMENT OF HON. SARAH SEWALL, UNDER SECRETARY FOR CIVILIAN 
   SECURITY, DEMOCRACY, AND HUMAN RIGHTS, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ms. Sewall. Thank you, Chairman Corker, Senator Cardin, 
members of the committee. Thank you for having me here today, 
and thank you for your leadership on this issue.
    I know that trafficking in persons, modern-day slavery, is 
a significant concern for this committee, and I look forward to 
working with you closely to tackle this insidious crime and 
human rights abuse.
    The release of this year's Trafficking in Persons Report 
underscores the importance that the administration and 
Secretary Kerry place on combating modern slavery. As noted by 
Senator Cardin, this year marks the 15th installment of the 
report, as well as the 15th anniversary of the Trafficking 
Victims Protection Act, the TVPA.
    The report itself reflects a year of dedicated effort by 
the Department of State's Office to Monitor and Combat 
Trafficking in Persons, the TIP office, as well as other 
bureaus and offices, and our missions around the world. Working 
year-round across offices and continents, the Department 
engages governments and civil society. It collects data. It 
navigates local laws. It develops best practices and 
objectively assesses each government's effort, including our 
own, to comply with the minimum standards for the elimination 
of trafficking in persons, as established by the TVPA.
    In this process, we assess the adequacy of national laws in 
prohibiting and punishing trafficking, and we evaluate 
government actions to prosecute suspects, protect victims, and 
prevent further trafficking. Based on the country assessments, 
the TIP Report ranks countries and territories on different 
tiers in accordance with the minimum standards outlined in the 
TVPA.
    These two distinct processes both entail complex criteria 
that require comprehensive factual analysis. The TVPA 
establishes criteria for the minimum standards in combating 
trafficking and delineates additional criteria for assigning 
tier rankings to governments for their anti-trafficking 
efforts.
    Let me walk through the four key elements of the minimum 
standards. The first three revolve around the adoption of 
adequate antitrafficking laws. This is seen as a critical 
hurdle for states because it establishes a comprehensive legal 
standard to effectively prosecute and penalize perpetrators. 
The fourth element of the TVPA minimum standards is whether or 
not a government has undertaken serious and sustained efforts 
to eliminate trafficking over the current reporting period.
    The TVPA provides 12 indicia to assess these efforts. 
Several of these indicia include additional criteria.
    The ranking process builds on minimum standards, but it 
also entails additional criteria pursuant to the TVPA. A Tier 1 
country is one that fully complies with these minimum 
standards. A Tier 2 ranking indicates that a country's 
government does not yet fully comply with minimum standards but 
is making significant efforts to bring itself into compliance.
    By contrast, a Tier 2 Watch List country indicates that a 
country is also making significant efforts to comply with the 
minimum standards, but in addition it meets one of the TVPA's 
following three conditions: one, the number of trafficking 
victims is very significant or significantly increasing; two, 
the government failed to provide evidence of increasing efforts 
from the previous year; or three, the government committed to 
make significant antitrafficking efforts over the next year.
    A Tier 3 ranking applies to a government that does not 
fully comply with the minimum standards and is not making 
significant efforts to bring itself into compliance.
    The tier ranking process further includes contextual 
factors, such as the severity of the problem and the 
feasibility of further progress, given available resources and 
capacity.
    In most cases, this tier assessment process clearly places 
government actions into one of the tiers. In other cases, 
further discussion among senior Department officials is 
required to clarify information and assess the totality of 
government efforts, pursuant to the TVPA's criteria. This 
ultimately leads to the Secretary of State's designation of 
tier rankings for each country and approval of the TIP Report.
    It is helpful and I think very important to underscore that 
the tier rankings do not assess the severity of a human 
trafficking problem in a given country. The tier rankings 
assess the government's efforts in addressing human trafficking 
problems over the current reporting period, compared to that 
government's own efforts in the prior year. And determinations 
about the direction and quality of that progress in a given 
country are guided by the complex criteria outlined in the TVPA 
itself and described on pages 45 through 50 of the TIP Report.
    The rigorous and comprehensive annual assessment process is 
what makes the TIP Report the gold standard in antitrafficking 
assessments. It is one of the most effective diplomatic tools 
our government has for encouraging a foreign government to 
improve its antitrafficking efforts.
    In the 2015 TIP Report, 18 countries were upgraded and 18 
were downgraded. In comparison, 15 were upgraded and 19 were 
downgraded in the 2014 report.
    There were encouraging trends this year. Portugal and the 
Bahamas moved to Tier 1 while others, like Kenya, Panama, and 
Bosnia-Herzegovina, moved from the Tier 2 Watch List to Tier 2.
    There has been considerable focus on countries that moved 
from Tier 3, the Democratic Republic of Congo, Cuba, Malaysia, 
Papua New Guinea, Saudi Arabia, and Uzbekistan. They moved to 
the Tier 2 Watch List.
    For countries that moved to the Tier 2 Watch List this 
year, the Department closely evaluated the efforts those 
governments had made during the reporting period, as well as 
the commitments they made for next year. And our posts are 
already working with host governments to encourage them, 4 
months into this next year's reporting cycle, to implement the 
recommendations outlined in this year's report. And the TIP 
office is finalizing assistance programming strategies to help 
make those recommendations a reality.
    Embassy personnel are having dialogues with host government 
officials about how to better combat this crime and protect 
citizens. Just yesterday, the Secretary discussed the 
importance of continuing progress against trafficking with the 
Government of Malaysia.
    The challenges are great, even for Tier 1 countries like 
the United States. Yet when I meet with trafficking survivors, 
whether in Uganda, India, or Albania, I am reminded how crucial 
and, indeed, how effective our work is. By prioritizing this 
issue, the U.S. Government has already changed the lives of 
millions across the globe, and Congress has played a leading 
role in this effort, from passing the TVPA to providing yearly 
resources to support antitrafficking initiatives on the 
frontlines of this global struggle.
    Though we can be very proud of U.S. efforts and encouraged 
by the progress to date, we cannot rest until the scourge of 
modern slavery has ended and all of its victims are free to 
choose their own destinies.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Sewall follows:]

                   Prepared Statement of Sarah Sewall

    Chairman Corker, Senator Cardin, members of the committee, ladies 
and gentlemen, thank you, Mr. Chairman and members of the committee, 
for your leadership in combating trafficking in persons. I know this is 
an issue of particular concern for the committee, and I look forward to 
continuing to work closely with you to tackle this insidious crime and 
human rights abuse. The release of this year's Trafficking in Persons 
(TIP) Report underscores the importance the administration and 
Secretary Kerry place on combating modern slavery.
    This year marks the 15th installment of the report, as well as the 
15th anniversary of the Trafficking Victims Protection Act (TVPA). The 
report reflects a year of dedicated effort by not only the Department 
of State's Office to Monitor and Combat Trafficking in Persons (TIP 
Office), but also its other bureaus and offices and missions around the 
world.
    Working year round across offices and continents, the Department 
engages governments and civil society; collects data; navigates local 
laws, develops best practices; and objectively assesses each 
government's efforts--including our own--to comply with the minimum 
standards for the elimination of trafficking in persons established by 
the TVPA.
    In this process, we assess the adequacy of national laws in 
prohibiting and punishing human trafficking and evaluate government 
actions to prosecute suspects, protect victims, and prevent further 
trafficking--the ``three Ps.'' Based on the country assessments, the 
TIP Report ranks countries and territories on different tiers in 
accordance with the minimum standards outlined in the TVPA.
    A Tier 1 country fully complies with these minimum standards. A 
Tier 2 ranking indicates that a country's government does not yet fully 
comply with the minimum standards, but is making significant efforts to 
bring itself into compliance. By contrast, a Tier 2 Watch List country 
indicates that a country is also making significant efforts to comply 
with the minimum standards, but also meets one or more of the following 
three conditions: (1) the number of trafficking victims is very 
significant or is significantly increasing; (2) the government failed 
to provide evidence of increasing efforts from the previous year; or 
(3) the government committed to make significant antitrafficking 
efforts over the next year. A Tier 3 ranking applies to a government 
that does not fully comply with the minimum standards and is not making 
significant efforts to bring itself into compliance.
    In most cases, this assessment process clearly places governments 
into one of the tiers; in other cases, further discussion among senior 
Department officials is required to clarify information and assess the 
totality of government efforts. This ultimately leads to the Secretary 
of State's designation of Tier rankings for each country and approval 
of the TIP Report.
    Tier rankings do not assess the severity of human trafficking in a 
given country, but rather that government's efforts in addressing human 
trafficking problems over the current reporting period compared to its 
own efforts in the prior year.
    Determinations about the direction and quality of that progress in 
a given country are guided by complex criteria outlined in the TVPA and 
described on pages 45 through 50 of the TIP Report.
    The TVPA establishes criteria for the ``minimum standards'' in 
combating trafficking and delineates additional criteria for assigning 
Tier rankings to governments for their antitrafficking efforts.
    The minimum standards have four key elements. The first three 
revolve around the adoption of adequate antitrafficking laws. This is 
seen as a critical hurdle for states, because it establishes a 
comprehensive legal standard to effectively prosecute and penalize 
perpetrators.
    The fourth element of the TVPA's minimum standards is whether a 
government has undertaken serious and sustained efforts to eliminate 
trafficking over the current reporting period. The TVPA provides 12 
indicia to assess those efforts, and several of these include 
additional criteria. Thus, the assessment and ranking process involves 
a comprehensive set of factors whose trajectories often vary 
significantly with respect to overall progress.
    The complexity of the TVPA assessment criteria reflects Congress' 
intention to have the Department consider multiple factors in the TIP 
assessment process, including not only government actions--but in the 
case of Tier 2 Watch List--government commitment to take further 
action. They also include contextual factors, such as the severity of 
the problem and feasibility of further progress given available 
resources and capacity.
    This rigorous assessment process, which implements the standards of 
the TVPA and ranks all the countries' efforts on an annual basis, is 
what makes the TIP Report the ``gold standard'' in antitrafficking 
assessments. It is one of the most effective diplomatic tools our 
government has for encouraging a foreign government to improve its 
antitrafficking efforts.
    In the 2015 Report, 18 countries were upgraded and 18 were 
downgraded. In comparison, 15 were upgraded and 19 were downgraded in 
the 2014 Report. There were encouraging trends this year: Portugal and 
the Bahamas moved to Tier 1, while others like Kenya, Panama, and 
Bosnia-Herzegovina moved from the Tier 2 Watch List to Tier 2. There 
has been considerable focus on countries that moved from Tier 3 to the 
Tier 2 Watch List this year; the Democratic Republic of the Congo 
(DRC), Cuba, Malaysia, Papua New Guinea, Saudi Arabia, and Uzbekistan 
moved up to the Tier 2 Watch List from Tier 3.
    For countries that moved up to Tier 2 Watch List this year, the 
Department closely evaluated the efforts those governments had made 
during the reporting period as well as the commitments they made for 
next year. Our posts are working with host governments to encourage 
them to implement the recommendations outlined in this year's report, 
and the TIP Office is finalizing assistance programming strategy to 
help make those recommendations a reality. I am receiving reports from 
the field on the frank and focused dialogues Embassy personnel are 
having with host government officials on how to overcome the challenges 
they face to better combat this crime and protect their citizens.
    The challenges are great--even for Tier 1 countries like the United 
States. Yet, every time I meet with trafficking survivors--which I 
recently did in Uganda, India, and Albania--I am reminded of how 
crucial this work is. By prioritizing this issue, the U.S. Government 
has already changed the lives of millions across the globe. Congress 
has played a leading role in this effort, from passing the TVPA to 
providing yearly resources to support antitrafficking initiatives on 
the front lines of this global struggle. Though we should be encouraged 
by this progress, we cannot rest until the scourge of modern slavery 
has ended and all its victims are free to choose their own destinies.
    Thank you again for your support, and I look forward to your 
questions.

    The Chairman. Thank you very much. I think it would be 
helpful for all of us for you to explain your role, and explain 
how that differs from the Under Secretary of Political Affairs. 
I think it would just be good to set that context first, and, 
if you would, maybe elaborate a little bit on the friction that 
naturally occurs between political affairs component and your 
role in ensuring the integrity of a program like this.
    Ms. Sewall. Thank you for the question, Senator.
    The process that we undergo within the Department engages 
many voices throughout the Department. As I noted, we work year 
round to gather and evaluate information that comes in and is 
processed through the TIP office, as well as a variety of other 
Departments through the bureau, working on the narratives for 
188 countries.
    The involvement of other officials would come to the extent 
that there are different perspectives that are presented to the 
Secretary for his consideration and final decisionmaking on 
tier rankings. And as with any reporting process and as with 
any State Department deliberations, there are a multiplicity of 
views, and the Secretary takes them into account when making 
his final decisions. Beyond that, the Department does not talk 
about internal deliberations.
    The Chairman. I guess by virtue of what you are saying, 
there are sort of different equities at stake. Would that be 
correct?
    Ms. Sewall. I think what is fair to say is that it is, as I 
hope I have outlined, a very complex process, with a number of 
different elements, both with regard to the minimum standards 
and with regard to the separate criteria for the tier rankings, 
and that there are often gray areas and a need for further 
factual analysis, and differences of opinions as how to apply 
the complex elements of the TVPA itself.
    So as with any human right process, any State Department 
process, there are a multiplicity of perspectives.
    The Chairman. But at the end of the day, I guess, sort of 
up the food chain, if you will, that decision is going to be 
made. In other words, someone above is going to decide which 
equities to stress more. And ultimately, someone at a much 
higher level will decide whether they believe someone should be 
ranked upwardly or downwardly. Is that correct?
    Ms. Sewall. The Secretary of State is responsible for the 
Trafficking in Persons Report. He makes the decisions about 
tier rankings, and I think there is no one who can question the 
Secretary's commitment to the antitrafficking cause. It is 
something that he evinced as a prosecutor. It is something that 
he carried with him as a Senator and as chairman of this 
committee. And it is, certainly, his strong and passionate 
commitment as Secretary of State.
    The Chairman. Well, I think probably it is viewed that he 
probably cares about that. I think the concern that we have 
here is that there are other interests that trumped this. So 
let me move into that.
    I am a strong supporter of TPP. I want to see the final 
elements. I am a little concerned about this last meeting and 
some of the things that are happening with intellectual 
property and other kinds of things. But I think that, 
certainly, establishing a good agreement, a good TPP agreement, 
is worthwhile.
    I think that it would go without saying that many of us are 
concerned that the upgrading of Malaysia had more to do with 
trying to make sure that TPP was entered into successfully than 
a care for people being trafficked. I mean, I think that is 
sort of the central reason we are having this meeting right 
now, along with Cuba and a few other places, where the 
administration's policies toward those countries trumped any 
real regard for humans that are being trafficked.
    So we understand that obviously Malaysia has passed some 
laws. I have looked at the actual effect on people, and I see 
very minimal--it is like eyewash--effect on human beings in 
Malaysia.
    Again, the reason we are here, let us face it, let us be 
outward about this, is many of us believe that, to use a 
rhetorical phrase, you sort of threw the trafficking piece 
under the bus to ensure that you were successful with TPP.
    I would like for you to do everything you can at this 
moment, you have an audience, to allay that concern and to talk 
to us about the number of people that were actually positively 
affected by this new criteria in Malaysia.
    Ms. Sewall. Well, thank you for sharing your views, Mr. 
Chairman.
    I think it is important to note that the Secretary himself 
spoke to the concern that you raised yesterday in Malaysia. He 
conveyed that he had zero conversation about TPP relevant to 
his decision related to the Trafficking in Persons Report and 
the tier ranking process. So I hope that that can satisfy your 
concerns.
    I am happy to talk about----
    The Chairman. I will tell you what would satisfy my 
concerns, if you could just lay out----
    Ms. Sewall. Yes.
    The Chairman. That comment does nothing to allay my 
concerns. If you would, tangibly explain to us how young women, 
16 years old, trafficked for sex, were positively affected by 
the Government of Malaysia's policies this year that caused 
them to go from Tier 3 to Tier 2. Explain that to me.
    Ms. Sewall. I am happy to talk about the process by which 
we apply the laws' standards to----
    The Chairman. No, no, no. I do not want the process. I want 
you to explain to me how people, real-life people who have 
parents and brothers and sisters, were affected by the 
government's actual implementation, and, therefore, caused them 
to move from Tier 3 to Tier 2, which conveniently, by the way, 
causes the TPP process to work in a way that works very well.
    Ms. Sewall. The Tier 2 Watch List criteria, pursuant to the 
TVPA law, means that a government does not fully comply with 
the minimum standards for elimination of trafficking, but that 
that government is making significant efforts to do so. And 
while Malaysia's Tier 2 Watch List ranking reflects the 
government efforts and commitments to amend its antitrafficking 
laws, the fact remains that the government has major work to do 
on its antitrafficking efforts.
    We will continue to work with the Malaysian Government, as 
the Secretary began doing yesterday in Malaysia doing, to urge 
the government to make continued progress.
    In terms of the application of the TVPA law itself, a key 
factor to highlight in Malaysia's upgrade is the Malaysian 
Government efforts during the reporting period, as well as its 
commitment to amend its antitrafficking law in the year ahead, 
which was, of course, the number one recommendation from the 
2014 TIP Report.
    During the reporting period, the government officials 
consulted with civil society in drafting amendments to the 
existing antitrafficking in persons act to address Malaysia's 
flawed victim protection regime, a central concern of ours.
    The government held four cabinet meetings to move toward 
implementation of the law and committed itself to passage of 
the law. We are encouraged by more recent progress on the 
amendments that occurred outside of the 2014 reporting period, 
but that were consistent with the commitments that the 
government made during the reporting period that have been made 
in moving the law forward.
    The Parliament has passed the amendments, and they will 
enter into force in the near future.
    In addition to this progress, Malaysian Government 
authorities increased their antitrafficking efforts in each of 
the key three areas. They increased the number of trafficking 
investigations by more than 100 percent, and they increased 
prosecutions by 67 percent. On protection, they experimented 
with a pilot program, very modest, very small, but nonetheless 
a pilot program addressing one of our core concerns, which was 
the ability of trafficking victims to leave government 
facilities in order to work while pending successful 
prosecutions of the cases.
    In the area of prevention, the Malaysian authorities 
undertook campaigns to raise awareness, continued their efforts 
to publish informational brochures, and trained nearly 700 
officials.
    So these are the reasons, Mr. Chairman, that factored into 
the TVPA criteria pursuant to the Secretary's decisionmaking on 
the tier rankings. We still have enormous concerns about 
trafficking in Malaysia. Those concerns are detailed in the 
report itself.
    We pulled no punches in terms of clarifying the extent of 
the problem and the nature of the problem. We see this as the 
important work ahead for us, to work with the Malaysian 
Government over the course of the next year.
    I can detail more of our concerns, but they are fully 
documented in the report itself.
    The Chairman. I know that you have to be here today 
representing the Department, and I know that you have to read 
the things that you just read. I would just say I do not think 
that any person in Malaysia that has loved ones who have been 
sold into sex slavery would be very comforted by what you just 
said. But I realize you have to do what you have to do. I do 
not want to make any personal attacks.
    But if I could, I know you talked about percentages. The 
government convicted three traffickers for forced labor--
three--and one for passport retention, a decrease from nine 
traffickers that it convicted in 2013. And you raised them from 
Tier 3 to Tier 2, based on those outcomes.
    Let me say this one more time. This is a country that has 
massive trafficking. Massive. I have met young ladies in the 
Philippines that were trafficked to Malaysia, sold into sex 
slavery. I hope they are not watching this.
    So the government convicted three traffickers for forced 
labor, and one for passport retention. And our State 
Department, for that record, less than what they did the year 
before, a country that is one of the worst in the world, and we 
raised them.
    I do not see any tangible outcome. I listened to all your 
criteria, but I am sorry, it just does not hit me in a place 
that causes me to believe that there was integrity in this 
upgrade.
    I would like you to respond, and then I will move to the 
next person. I feel like I am dominating.
    Ms. Sewall. Sure.
    I think whether it is nine convictions or whether it is 
three convictions, in the case of Malaysia, given the scale of 
the problem, it is inadequate. The report makes that very 
plain.
    That is not the basis on which the Secretary would make a 
sole decision regarding a tier ranking. I have explained to you 
many of the elements that fit the criteria that are required 
for us to consider, under the law, pursuant to both the 
narrative, the factual narrative in the book itself, and 
pursuant to presenting any information for the Secretary's 
decision with regard to tier rankings.
    As you well know, the legislation itself is very complex. 
It asks us to look at a huge variety of factors, and it asks us 
to weigh and balance a huge variety of factors. Not all of the 
indicators go in the same direction.
    The comprehensiveness of this report, and the facts that 
are contained in the narratives, I think are something that we 
should be very proud of, and something that we can continually 
use to try to achieve the very kinds of impacts on the ground 
that you are talking about.
    Secretary Kerry yesterday in Malaysia raised this issue of 
prosecutions, offered to have the FBI help Malaysia improve its 
investigatory capacity, because it is our understanding that 
that is a significant factor in limiting effective 
prosecutions. That is an example of the ways in which we use 
the report, we use the factual analysis to try to make real 
outcomes for people on the ground.
    The Chairman. I will reserve my questions, my additional 
questions, for later. I would just say that I would think that 
you would raise them up after they took him up on the offer of 
the FBI helping and actually began to be serious. I know that, 
again, you are tasked with a tough job today, and my heart goes 
out to you.
    Senator Cardin.
    Senator Cardin. The Trafficking Victims Protection Act is 
designed so that the ratings are based solely on the 
circumstances on the ground and meeting the criteria of the 
statute. As you point out, we evaluate all countries, including 
the United States. It is not meant to take into account any 
political or other bilateral issues between the countries. That 
was the clear intent of Congress.
    I know that Secretary Kerry has reported that that was true 
in this case, but the perception here is to the contrary. It 
may require us to look at changes in the statute, to preserve 
the integrity of this report, and I am going to ask you to 
provide to this Senator with ways that we can strengthen the 
law to make sure that those who are closest to the ground and 
understand what is going on have the most to say about how the 
rankings are done using international standards.
    Let me get to Malaysia, and I could go to other countries. 
What concerns me about Malaysia, and maybe you can give me 
other examples of where this has happened, in 2014, we 
downgraded Malaysia from Tier 2 Watch to Tier 3. We were pretty 
specific as to what we wanted them to do in order to get off 
that list. You point out that the number one recommendation was 
to amend the antitrafficking law.
    Have we ever taken a country off Tier 3 because they had 
pending, but not enacted, the changes we asked for in their 
law? Are there other examples where you can show us that after 
1 year of being on Tier 3, we said that they have made serious 
and sustained efforts and significant efforts by proposing a 
law, not enacting it, and not having any experience as to how 
well that law, in fact, has been implemented, which was our 
number one recommendation?
    It seems to me that taking them off of Tier 3 takes the 
pressure off. And therefore, what guarantees do we have that 
they, in fact, will enact and implement the law?
    Let me also mention a couple other factors that were in the 
2014 report. We noted issues with prosecuting trafficking 
offenses, and convicting and punishing traffickers. That was 
based upon nine convictions. That is inadequate and they went 
from Tier 2 Watch to Tier 3 because they did not convict.
    It is called impunity. You may have laws, you may have 
prosecution, but if you cannot convict, if you cannot hold 
people accountable, they walk, and they know that they can 
commit the crimes. That is unacceptable. In our 2014 report, 
unacceptable. We have to see more prosecutions.
    In 2015, they go from nine convictions to three. Where is 
the serious and sustained and significant progress there?
    You then list in your report, that to justify this, the 
government adopted a pilot project to allow a limited number of 
victims to work outside government facilities, because one of 
the recommendations in 2014 is to work with the victims.
    My understanding is that the pilot program had four people 
participating in it. I do not even know why you listed it.
    It seems like you are trying to justify a result that is 
not there. Where am I wrong? What am I not seeing here?
    Ms. Sewall. Let me offer a couple of responses to that, 
Senator Cardin.
    First of all, as you well know, the report itself judges 
not the situation of trafficking or the severity of a problem, 
per se. The report itself judges the government's efforts, and 
it judges those efforts in a dynamic context. It judges the 
government's efforts this year against the government efforts 
during the last reporting period. Part of the strength of the 
TVPA, in my opinion, is the fact that it is an annual process, 
and, therefore, there is a constant reevaluation of all of the 
different elements that come into play in evaluating both a 
country's efforts with regard to the minimum standards 
articulated in the report and the placement of a country on a 
watch list.
    Now in the case of Malaysia, as I said, the report itself, 
the Trafficking in Persons Report itself, makes the very points 
that you made. It talks about the limited number of 
prosecutions and how that is a weakness.
    Senator Cardin. So they are on Tier 2 Watch List because of 
that? Is that one of the reasons? They then get rewarded from 
Tier 3 to Tier 2 Watch for going from nine convictions to 
three?
    Ms. Sewall. One of the things that I have learned in 
working with the Trafficking in Persons office is how the TVPA 
specifically requires the administration to look at a huge 
number of factors.
    Senator Cardin. You can always justify a decision.
    Ms. Sewall. We follow the law by upholding exactly the 
provisions of the report and looking at all of these different 
pieces of information. They are, in turn, all reflected in the 
report.
    I think you will see virtually in any country that we 
evaluate, to include our own country, criticisms, shortfalls.
    So the ranking process needs to be understood as one that 
evaluates the government's actions compared to its actions 
before, and that will be reevaluated in a year's time. There 
are so many different elements that come into play that we 
include in the report both the criticism of prosecutions, but 
we also include in the report, pursuant to the 3P requirement 
of the TVPA, where the government has made progress in other 
aspects. All of those go into the narrative process. And it is 
that fact-based narrative process that, in turn, informs the 
Secretary's decisions on the tier rankings.
    Senator Cardin. I just call your attention to your own 
report in 2014. The recommendation section is not very long. It 
contains maybe 10 recommendations for change. I do not see 
progress on any one of the 10 recommendations in the 2015 
report, other than the recommended changes in law that have not 
been passed yet. I look at each one of these and I look at your 
narrative here, trying to compare where progress has been made, 
I do not see it. If the reports mean anything, if the 
recommendations mean anything, then it seems to me, if we are 
going to upgrade their tier status, it has to be based on 
concrete progress made on the recommendations of the previous 
report.
    Ms. Sewall. So let me explain the recommendations then. The 
recommendations for a given country do not reflect the steps 
that need to be taken in order to jump to the next tier. That 
is not the purpose of the recommendations. Our report aims 
higher.
    Our recommendations for each country ask them to stretch 
toward the minimum standards and ask them to stretch in ways 
that would take them far beyond the next tier ranking. We ask 
for more.
    So the recommendations are not linked to the next tier 
ranking. The recommendations are all of the different changes 
that we would like to see to be fulfilling the minimum 
standards related to the Palermo Protocol.
    Senator Cardin. That is what I would expect. But to upgrade 
a rating you would expect that there had been progress made. In 
this case, going from Tier 3 to Tier 2 Watch List, you expect 
to see sustained, serious, and significant efforts. That is 
that standard in the statute. So you have to have that.
    So your recommendations for them to meet the minimum 
standards are spelled out in the 2014 report, where they are 
ranked Tier 3. I am going through those recommendations for 
action, then looking at your justifications in the 2015 report, 
and I do not see serious, sustained and significant progress on 
the recommendations that would justify an upgrade.
    Ms. Sewall. There are very few, relative to the number of 
countries in the world, that meet the minimum standards. I 
think that is perhaps part of the confusion.
    So the minimum standards are something that we aspire to 
see all 188 countries move toward. Even those countries that 
meet the minimum standards, the report still requires that we 
ask countries to do better and that we measure them by their 
own progress there.
    In the case that you are raising specifically of Malaysia, 
I have articulated several of the different elements of change 
that the government made over the course of the last year, 
pursuant to the TVPA criteria, that have a bearing on tier 
ranking placement. Those include both actions and commitments 
to address what was a key concern of ours over recent years 
with Malaysia, pertaining to both the law and the treatment of 
victims. It also included concrete actions in some areas such 
as investigations and prosecutions, but, as you pointed out, 
not convictions. But there were positive efforts in that 
regard.
    So it is a complex equation with many different factors. 
But I think what is really important is that, in all cases, we 
are asking countries to do more, even in cases where countries 
meet minimum standards.
    But as I said, those countries currently meeting minimum 
standards are, unfortunately, still a minority of the 188 
countries and territories we examine.
    Senator Cardin. So I would ask that you give me examples of 
a country that was ranked as a Tier 2 country one year, then is 
downgraded to a Tier 3 country the next and then, in the 
following year, goes back up to Tier 2. Can you give me an 
example of a country that did that based upon promises, not 
action, because I think that is what you are saying. You are 
saying promises, not actions.
    I will just make this last point, and I would appreciate 
that information, where you have seen that quick of a 
turnaround from Tier 2 to Tier 3 back to Tier 2 on promises.
    And I can tell you this, once the spotlight goes down on 
this issue, and it does; and once this report is issued and 
they know they have another year the chances of getting the 
type of action we want is just not there anymore, based upon 
the TIP ranking.
    That is a lot of pressure, believe me. I cannot tell you 
how many representatives of other countries come in to talk to 
me and complain about the TIP Report ranking. I say look, let 
us look over the report. Here is what you can do. These are the 
minimum standards. This is how you can do better. We all can do 
better. The United States can do better. We all know that.
    The purpose of these reports is for all of us to do better 
because we all agree trafficking is horrendous.
    But in this situation, when you can get an upgrade on the 
cheap--and that is what it looks like--by making a promise 
without action, it diminishes the strength of this report.
    If there are other examples, please show me. Show me where 
you have gone through such a quick turnaround based upon 
promises, not action. That appears to be what you have in 
Malaysia today in the way you did this report.
    The Chairman. Senator Menendez.
    Senator Menendez. Madam Secretary, you were here in 
February before the committee. At the time, I said to you the 
Trafficking in Persons Report, we all recognize, is a 
significant tool in our efforts here. The chairman referred to 
the fact that we have no ambassador at large in that role. So I 
assume that your answer to him is that you are personally going 
to protect the integrity of the TIP Report overall, and 
especially with regard to particular countries that may be 
subject to intense political pressure within the building. Your 
answer to me was yes.
    Now, before you answer my questions, I want you to think 
about the following. I want you, before you answer my 
questions, to think, if there was an Inspector General's 
investigation or some other investigation, would your answers 
hold up in emails, memos, letters, and any and all 
communications?
    So with that in mind, which, Mr. Chairman, I would urge the 
committee to seek all of the documentation that was created in 
the context of devising this year's report, because in the 
answers to you and the ranking member, I am certainly not 
satisfied.
    The Chairman. If I could, I think that based on this 
presentation, if that is not forthcoming immediately, my sense 
is the committee would take the very unusual step of 
subpoenaing that information.
    This is possibly the most heartless, lacking of substance 
presentation I have ever seen about a serious topic. And I do 
not see how anyone could believe there was integrity in the 
process.
    I feel for our witness. I know that she has to come up here 
and do what she does. This may be the worst day she has ever 
had in her service, to have to say the things that she is 
reading to us right now.
    But I would join in with others, if that information is not 
coming, to subpoena that information, because I think it should 
be done. So whatever you guys wish to do, I would join you.
    Senator Menendez. I would urge you and the ranking member 
to at least send a letter immediately to seek preservation of 
all such documents, so that if they are forthcoming, that is 
great and they can be analyzed, if not, that they are 
preserved.
    This is the latest that the TIP Report has been issued, is 
it not?
    Ms. Sewall. I am sorry, sir?
    Senator Menendez. This is the latest that the TIP Report 
has been issued?
    Ms. Sewall. The latest in time, yes.
    Senator Menendez. Why was that?
    Ms. Sewall. There are a number of reasons but they include 
the Secretary's personal commitment to being engaged in these 
issues and his travel schedule difficulties to make the time 
for that to happen.
    Senator Menendez. So let me ask you, what are the start and 
end dates? I know you have talked about the complexity of this 
calibration, so let me deal with some things that maybe are not 
so complex. What are the start and end dates of the reporting 
period covered by the TIP Report?
    Ms. Sewall. Sure. The TIP Report runs through March 31, and 
it typically covers data from prior years.
    Senator Menendez. So April 1, 2014, to March 31, 2015.
    Ms. Sewall. Where we have data.
    Senator Menendez. Okay. So the reality is that one of the 
main justifications for the upgrade of Malaysia that you have 
testified to here and answered as well was the government's 
effort to introduce amendments to strengthen antitrafficking 
laws and provide additional support for victims. But it is my 
understanding that the Malaysia Cabinet did not introduce these 
amendments until April 3 and that these were not approved by 
the Malaysia Parliament until June. Is that correct?
    Ms. Sewall. That is correct, sir. I would refer you to the 
factors to consider in determining Tier 2 and Tier 2 Watch List 
or Tier 3 countries, which exist in the law, the TVPA itself. 
One of those factors includes the determination that a country 
is making significant efforts to bring themselves into 
compliance.
    Senator Menendez. So simply offering amendments before they 
ever passed, before they are introduced, before they become 
part of the law, even before implementation, you are trying to 
suggest that is significant?
    Ms. Sewall. As I stated----
    Senator Menendez. Without knowing how far they were going 
to go in the reporting period?
    Ms. Sewall. There are a variety of ways in which Malaysia 
made progress over the course of the last calendar year.
    Senator Menendez. Okay, I have heard that answer.
    Ms. Sewall. One of the ways----
    Senator Menendez. I would like you to be responsive to my 
question.
    Let me ask you this, on June 1, the Assistant Secretary of 
State for Population, Refugees, and Migration Anne Richard 
reaffirmed that the 2015 TIP Report covers until March 2015, 
which means that Malaysia's handling of the Rohingya refugee 
crisis will only be reflected in the 2016 report.
    So how is it that you reflect things that happened after 
the reporting period that are positive, but you will not 
reflect those things that are negative after the reporting 
period? It seems to me you cannot have it both ways.
    Ms. Sewall. I would be happy to explain that, Senator.
    The law that I was referring to, the TVPA law, specifically 
states that a country making significant efforts to bring 
themselves into compliance with minimum standards, based on 
commitments by the country to take additional future steps over 
the next year, is in the Tier 2 Watch List criteria pursuant to 
the law.
    That is the law. It has us looking at commitments. Those 
are not necessarily the sole reason for a decision related to a 
tier ranking. As I stated in the case of Malaysia, there are a 
number of different elements of progress that were made, both 
pursuant to preparing for the law but also in other areas that 
were factored into whatever decision that the Secretary makes.
    Senator Menendez. So the upgrade was partially based on 
actions that have not been implemented, that were not even 
passed, that were outside of the reporting period, but you did 
not take into account the discovery of the mass graves found in 
May.
    Clearly, those graves reflected many months of trafficking 
activity before their discovery. So I do not quite get it.
    Let me ask you this----
    Ms. Sewall. Senator Menendez, we are very concerned about 
trafficking in Malaysia. That is----
    Senator Menendez. It is not your concern I am worried 
about. It is your actions, not your concern.
    Ms. Sewall. Well, our actions----
    Senator Menendez. When I presided over your hearing as 
chairman of this committee, I believed that you were concerned. 
Now I am concerned about your actions. Not yours so much, but 
since you said to us in February, you would be responsible, you 
know, I have to pursue it.
    Now, it has been answered here that there were nine 
convictions for trafficking in 2014. There were three in 2015. 
That is a two-thirds decrease in convictions that Malaysia had 
over the reporting period. Then the TIP Report mentions a pilot 
program that allowed victims to work outside of government 
holding facilities, and the answer to that is there were four 
people totally who participated.
    So you are telling us that the upgrade was based on 
preliminary action, on legal reform that took place after the 
reporting period, on increased investigations that resulted in 
fewer convictions, and a pilot program that granted a total of 
four victims some refuge.
    Ms. Sewall. Let me share with you the Secretary's comments 
on Malaysia, Senator.
    He signed off on the tier ranking relative to Malaysia 
because of his belief that Malaysia has taken the right steps 
to change. Those include a variety of factors, many of which I 
have enumerated. There are other elements that are deeply 
concerning, many of which I have enumerated and you have 
enumerated.
    The Secretary said the rankings indicate Tier 2 Watch List, 
that there is still enormous room for improvement. It is not a 
golden seal of approval and it is a sign of movement in the 
right direction.
    Senator Menendez. I appreciate all of that, but Malaysia 
got what they wanted. They got to Tier 2, which just happens to 
allow them to continue TPP negotiations and have preferential 
access into the United States market, assuming that they 
actually conclude successfully being part of the TPP, which 
under Tier 3 and my amendment, which is law, they would not 
have qualified. They could have been negotiated with, but they 
did not qualify for preferential access.
    Now here is what the groups on the ground tell us what is 
actually happening in Malaysia. A July 22 press release from 
the president of the Malaysian bar states, ``Any upgrade at 
this juncture would thus be a hollow victory of form over 
substance. The lives of an untold number of individuals bear 
silent testimony to the conclusion that Malaysia has yet to 
earn any upgrade.''
    Moving on, the U.N.'s Special Rapporteur in Trafficking in 
Persons in June of this year, in referring to the same time 
period covered by the 2015 TIP Report, said that the rate of 
prosecution of trafficking cases also remains very low, which 
perpetuates the impunity of traffickers and obstructs victims' 
access to justice.
    David Abramowitz of the Alliance to End Slavery and 
Trafficking said recent press reports suggest that the State 
Department is recommending Secretary Kerry take an immoral and 
unprincipled stand in this year's Trafficking in Persons Report 
by concluding that the Government of Malaysia is making 
significant efforts to combat human trafficking in its country.
    There is a whole host, I could go on, of a universe that 
has a different view.
    Mr. Chairman, I have questions about Cuba, and I hope there 
will be a second round.
    The Chairman. I have no objection to you continuing.
    I do want--I want to move to India. I think everyone in the 
audience pretty well understands why Malaysia was upgraded.
    I am not sure I understand what the competing equities were 
on India. So I think we have established what happened with 
Malaysia. I think there will be further investigations that 
will occur, but I do hope we will get to India. It is hard for 
me to understand how India could possibly be a Tier 2 entity, 
and I hope the Secretary will explain to us what those 
competing equities were there. I am not sure I fully 
understand.
    But if you want to go on with Cuba for a moment, that will 
be fine.
    Senator Menendez. Thank you, Mr. Chairman.
    Madam Secretary, at the rollout of the report, Secretary 
Kerry announced that you had the primary supervisor 
responsibility for it. According to a Reuters' article 
published Monday, the TIP office disagreed with the diplomatic 
bureaus on 17 rankings and was overruled on 14 of the 17, 
representing the worst ratio in the 15-year history of the TIP 
Report. Is that accurate?
    Ms. Sewall. We do not comment on internal deliberations, 
Senator Menendez. What I can tell you is that the reporting 
that was done by the TIP office and the team at the State 
Department was thorough and fact-based.
    Senator Menendez. So you are neither saying it was accurate 
or inaccurate.
    Mr. Chairman, and to the ranking member who asked about 
possible reforms to the law, it seems to me that it at least 
confidentially should be transmitted to Congress to understand 
the deliberations that took place, so that if, in fact, the 
Reuters' article is true, that out of 17 disputes that the TIP 
office supposedly said these countries should not be elevated, 
that they lost 14 times, which is the worst ratio if it is 
true, that is something Congress should know.
    Did the TIP office recommend that either Malaysia or Cuba 
stay on Tier 3, as Reuters suggests?
    Ms. Sewall. Senator Menendez, the Department does not 
comment on internal deliberations.
    Senator Menendez. Let me ask you this, when did you begin 
to engage with Cuba, since we did not formally establish 
relationships until after March 31, 2015, which is the end of 
the reporting period?
    Ms. Sewall. Let me get that information for you. Cuba sent 
two of its government antitrafficking experts to participate in 
an international visitors leadership program in June 2015. This 
was the first time any Government of Cuba official participated 
in the program. And participants learned about the U.S. 
perspectives on the problem and observed how we fight 
trafficking in persons.
    Senator Menendez. So that was an informative process that 
they had.
    Ms. Sewall. And over the course of the last 2 years, the 
Department has begun sharing information with Cuba, asking Cuba 
for information regarding its anti-TIP efforts.
    The significance of the engagement I think cannot be 
overstated, which is to say that we previously had no 
information from Cuba at all on the trafficking situation in 
Cuba, and we now receive information from the government. That 
has enabled us to provide more concrete recommendations.
    Senator Menendez. So the providing of information is 
sufficient to be raised to Tier 2?
    Ms. Sewall. No, that is not what I said. You asked me to 
describe the engagement.
    Senator Menendez. Let me ask you this, did the USTR or the 
White House communicate with State Department officials to urge 
a specific outcome in any of these rankings?
    Ms. Sewall. Not to my knowledge.
    Senator Menendez. So email chains would show that is not 
the case, right?
    Ms. Sewall. To my knowledge, that is correct.
    Senator Menendez. Let me ask you this. I have serious 
concerns about politics having influenced the decision to 
upgrade Cuba from Tier 3. The 2015 report recognizes that there 
has been no progress on issues of forced labor. We all know 
that the Castro regime is complicit in nearly all cases.
    Last year, the Cuban Government conscripted thousands of 
doctors to participate in foreign medical missions, including 
combating Ebola in Africa. In addition to the well-known fact 
the Castro regime grabs over 70 percent of the wages paid by 
the World Health Organization to Ebola medical mission 
participants, there are more troubling considerations that did 
not make the 2015 TIP Report.
    For example, the Madrid-based news platform reported that 
Cuban doctors were forced to list the Cuban Government and not 
their families as beneficiaries on World Health Organization-
provided life insurance policies.
    The 2015 TIP Report states that Cuba is a source country 
for adults and children subjected to sex trafficking. While 
information on the scope of this issue is extremely limited, 
there are independent reports which indicate that many 
prostituted children in Cuba are second or third generation and 
in some cases as young as 4 years old.
    In a country where there is virtually no reporting data on 
human trafficking, nor the willingness to allow international 
human rights organizations or NGOs to conduct investigations, 
how does the State Department measure progress? How can you 
help us understand how the administration quantifies any 
advantages, given the restrictions presented by Cuba today?
    Ms. Sewall. Thanks for the question, Senator.
    You are absolutely right. We remain concerned about labor 
trafficking in Cuba. I think the report makes that clear. What 
has been significant and where we have seen change in Cuba is 
on the question of sex trafficking.
    The conviction of sex traffickers has been significant in 
the context of Cuba's history and the region, and the provision 
of services to sex trafficking victims is also something that 
is extremely positive that we have seen on behalf of the Cuban 
Government.
    They have additionally made efforts to increase awareness 
in prevention efforts with regard to sex trafficking, and they 
have provided training to Cuban officials to recognize it and 
assistance to U.S. Federal prosecutors.
    Senator Menendez. Let me ask you this. Given the fact that 
the Castro regime takes 70 percent of wages paid to its 
doctors, and that Cuban doctors were forced to sign their life 
insurance policies over to the government, and that in many 
cases when they are sent abroad their passports are taken away 
so they cannot flee, did the State Department consult with the 
World Health Organization about those incidents?
    Ms. Sewall. I would have to check on that, sir. I do not 
know. I am sorry.
    Senator Menendez. Would you get that back formally for the 
committee?
    Ms. Sewall. Absolutely.
    Senator Menendez. Mr. Chairman, I will not go on.
    I will just simply close, Mr. Chairman, by saying, I took 
to heart what Secretary Kerry said when he released the report. 
He said, we have to be true to the principle that although 
money may be used for many things, we must never ever allow a 
price tag to be attached to the heart and soul and freedom of a 
fellow human being.
    I do not know that we did not pervert the lofty goal by a 
report that clearly seems to me has been politicized in a way 
that is not justifiable and cannot be justified.
    I look forward to continuing to be engaged with the chair 
and the ranking member on this issue.
    The Chairman. Thank you. I deeply appreciate your sincerity 
on this issue and your long-held concerns. Senator Cardin has 
been a champion for human rights.
    And I just want to say to the Secretary, I am putting you 
on notice that any destruction of emails, phone records, or 
letters from 11:19 a.m. on could have significant consequences. 
I know that we are going to discuss how we go forward in trying 
to understand what has really occurred here.
    I think it is an understatement to say that this testimony 
does not cause us to have a lot of faith in what is occurring. 
I would just say, again, if the administration is not serious 
about carrying out issues of this type, I think certainly with 
other issues before us, certainly, it creates concerns.
    Let me go to India. I think we all understand, again, what 
happened with Malaysia.
    Talk to me a little bit, if you can, in India--it is an 
amazing thing. As I understand it, the Government of India 
seized the passports of trafficking victims and their families 
who were issued T visas, which were reserved, by the way, for 
trafficking victims by the U.S.
    In other words, we were trying to get trafficking victims 
here to safety. We understand that the Government of India 
seized their passports. They denied international travel to 
others.
    Can you tell me what the internal equities would have been 
within the Department? I think that we fully understand with 
Malaysia--that would have caused the Department to not be any 
more pursuant, if you will, on India?
    Ms. Sewall. Thank you, Mr. Chairman.
    India's Tier 2 ranking indicates that it does not fully 
comply with minimum standards but is making efforts to do so. 
The significance of those efforts is really primarily in the 
shelter and rehabilitation services arena, as well as in its 
training of prosecutors and judges, and the launching upon the 
order of the Supreme Court within India of searches to trace 
the whereabouts of lost and abandoned children, including 
potential trafficking victims.
    We remain concerned, as you stated, about the T visa issue. 
It was in July 2014 that the Government of India began 
confiscating the passports of Indian nationals that had 
received T visas. As you noted rightly, these were visas 
provided by the U.S. Government to trafficking victim family 
members. These were the T derivative visas.
    The Indian High Court has ruled in favor of petitioners 
that had had their passports confiscated as a result of the 
policy. They cited a violation of their rights guaranteed under 
the Indian constitution. The Indian Government has not appealed 
this case, but the actual dispositions of the cases affected by 
the policy remain pending at the close of the reporting period.
    But this is absolutely a concern and this is one that we do 
repeatedly raise with the Indian Government.
    The Chairman. Mr. Ranking Member, I am not going to ask any 
more questions. I think it is pretty clear that until we get 
into internal documents, we are never going to know what truly 
is at hand here.
    I gave a speech on the floor, which I rarely do. Nothing 
really happens on the floor that matters most of the time, 
speech-wise. I know there is a lot of discussion right now 
about the presidential races and anger that the American people 
have at the U.S. Government and some of the anomalies that are 
taking place. People are making comments about certain 
candidates and why they are getting traction on both sides of 
the aisle, I might add.
    At the time, when we passed the highway bill, when, in 
essence, we engaged in generational theft, where we basically 
took 10 years of spending and 3 years of payout and we created 
all of these gimmicks because, let us face it, Congress does 
not have the courage to deal with the issue head-on, I said 
this was Exhibit A as to why Americans are so upset at 
government.
    I will have to say that anybody watching this would have to 
say this is like Exhibit A-plus as to why Americans should be 
upset with government.
    This is a reflection on us. What we are hearing today is a 
reflection on us. I am very disappointed in the testimony.
    Again, I do not want to take it out on the person who has 
been thrust into having to read these comments that were put 
together by bureaucrats at the State Department.
    But I do hope that we will take actions here. This is 
obviously not something that reflects the great Nation that we 
are. I do not think anybody listening to this could think that 
America is really serious, at least at the State Department 
level, regarding trafficking in persons.
    I know we have a new person that has been nominated, by the 
way, who I do think cares deeply about this issue and 
potentially could bring about some balance here. I think we 
could see that the political side, in other words, the 
expedient things for our country, especially involving money, 
money, those things sort of won out in this process over the 
human side.
    But I am disappointed. I am not going to say anymore, for 
regretting maybe going over the top here. I will not do that. 
But I do think that we can all see that we have created 
something here that is not working properly.
    This process, to me, has been extremely inappropriate, 
especially this year. And I look forward to working with you 
and others on this committee to try to figure out a way to 
rectify something that has gone amok, and pulling back from 
balances here, so we ensure that human beings lives at least 
come into some kind of balance relative to other equities, if 
you will, that our government has.
    I want to thank the witness for her willingness to come 
here, but I will not ask any more questions, because I realize 
I am going to get bureaucratic answers that do not really get 
to the essence of what the problem is.
    Senator Cardin. Mr. Chairman, if I might, the TIP Report is 
a very valuable report. The rankings have incredible 
significance, not just in shaming nations to do better, and 
that is an important factor, because it is not where you want 
to be, on a watch list or on Tier 3. But the report also has 
financial implications. It has implications for our 
partnerships. And it has ramifications on private companies and 
their economic participation in other countries.
    So it is a very important tool. Countries hire lobbyists to 
try to influence us on things like the TIP Reports. That is one 
of the reasons why I am particularly concerned about the 2015 
report.
    Let me just sort of underscore this point. Whether politics 
played a role or not in the determinations, the perception is 
that it did. It is going to be a much more open season by 
countries to try to influence the tier rankings through the 
political process. That is not good.
    If the Reuters' report is accurate, and I do not know if it 
is or not, and I am not going to inquire further of our witness 
on this, but if the objective keepers were overruled a record 
number of times by those who were more politically engaged in 
other issues with countries other than trafficking, that also 
undermines our confidence that, in the future, this report will 
be based upon the objective standards that are in the statute, 
which has been why this report has been so valuable.
    So I come back to the point that I really do believe we 
need to revisit the statute. I am afraid to take away some of 
the discretion at the higher levels at the State Department, 
and looking at making sure there is a more objective analysis 
on how these reports are done or at least getting more 
transparency on the interaction at the higher levels of State 
Department, so that we have a more accountable system for how 
these decisions are made.
    I regret that I am not yet prepared to reach a conclusion 
as to how these reports were done, other than to say that there 
is certainly a perception out there that politics, played a 
role in some of these determinations.
    That is not healthy for the future of this report, and my 
interest as a United States Senator is to protect the integrity 
of the Trafficking in Persons Report, and U.S. leadership 
globally on fighting trafficking.
    It is one of the great horrors of our time. Anything we can 
do to combat trafficking, we must do and we need to be 
aggressive.
    The Chairman. Senator Menendez, do you want to say anything 
in closing?
    We thank you very much for allowing us to have this venue. 
I do realize that once you furnish to us all of the emails and 
phone conversations and letters about this, we may reach a 
conclusion that this process was full of integrity. That is not 
my thinking today, but I certainly will await all of that 
information coming to us.
    And I want to agree with the ranking member. I do not know 
exactly what actions we need to take, and I know that whatever 
we take, we will do so in a manner that is very bipartisan in 
nature and one that only seeks to have integrity in this 
program. But I think certainly this meeting raises major 
concerns about whether this is something that has run amok.
    Sometimes around here, let us face it, when companies and 
countries realize that they can affect the process to benefit 
them financially, let us face it, lobbying occurs. And it 
occurs not just in Congress, but it occurs, let us face it, in 
departments.
    So we need to make sure that we understand this fully. I 
hope that voluntarily all of the information relevant to this 
will be forthcoming. I look forward to following up with the 
Secretary on this in one form or another.
    And I guess the record will remain open until Monday 
afternoon for people to ask questions.
    The Chairman. With that, would you like to say anything 
else in closing?
    Ms. Sewall. Thank you. I think Americans can be very proud 
of the TIP Report. I think it has made a difference for 
millions of people around the globe, and I think it will 
continue to make a difference in the future. And certainly, as 
an American, I am very pleased to be a part of it, and I am 
proud that we have elevated this issue on the global agenda and 
made a difference in so many lives.
    The Chairman. Thank you so much.
    The meeting is adjourned.
    [Whereupon, at 11:32 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record

         [Press Release/From the Malaysian Bar, July 22, 2015]

 Untimely and Unwarranted Upgrade in the Trafficking in Persons Report 
            Compromises the Fight Against Human Trafficking

              (By Steven Thiru, President, Malaysian Bar)
    The Malaysian Bar is perturbed by recent news reports suggesting 
that Malaysia will be upgraded from Tier 3 to Tier 2 Watch List status 
in the rankings in the imminent 2015 Trafficking in Persons (``TIP'') 
report prepared by the United States (``U.S.'') Department of State.\1\
    The TIP report ranks nations according to their willingness and 
efforts to combat human trafficking. It is considered as the benchmark 
index for global antitrafficking commitments.
    Malaysia's historical ranking in the TIP report is abysmal. In the 
2014 edition of the TIP report, Malaysia was downgraded to Tier 3 
because the Government was ``deemed not to be making significant 
efforts to comply with the minimum standards,'' and it had made 
``limited efforts to improve its flawed victim protection regime.'' \2\ 
This is the lowest ranking in the TIP report, and placed us alongside 
North Korea, Syria, and Zimbabwe.
    The 2014 TIP report also stated that Malaysia had been granted 
consecutive waivers in 2012 and 2013 from an otherwise required 
downgrade to Tier 3, on the basis of a written plan for compliance with 
the minimum standards for the elimination of human trafficking. 
Malaysia was downgraded in 2014 because the Government had not 
adequately translated the written plan into action.
    The U.S. Ambassador to Malaysia has reportedly suggested that the 
Malaysian Government needs to show greater political will in 
prosecuting human traffickers and protecting their victims, if the 
Government hopes to improve its currently lowest ranking in the TIP 
report.\3\
    It is inconceivable that Malaysia should receive an upgrade in 2015 
based on the recent amendments to the Anti-Trafficking in Persons and 
Anti-Smuggling of Migrants Act 2007, which, in any event, have yet to 
come into force. If there is any lesson to be learnt from recent 
experience, it must be that the Government has an excellent record of 
drafting written plans, but a less than satisfactory record of 
implementing them. As such, the upgrade of Malaysia, if it were to 
occur, would be premature and undeserved.
    Further, the gruesome discovery of the ``death camps'' and mass 
graves of victims of human trafficking in May 2015 \4\ must necessarily 
be taken into consideration in the decision concerning Malaysia's 
current ranking, despite the cut-off date of March 2015 for the report.
    Such a discovery is irrefutable proof that human trafficking has 
been ongoing, on a large scale and for a considerable period of time, 
on Malaysian soil.\5\ The Malaysian Government's alleged ignorance of 
this atrocity, which is incredulous, must not be disregarded or 
rewarded.
    On 15 July 2015, nineteen members of the U.S. Senate acknowledged 
that amendments had been made to Malaysia's antitrafficking laws, but 
that ``additional work remains to ensure that this legislation is 
implemented in a manner consistent with the recommendations in the 2014 
report.'' \6\ On 17 July 2015, a bipartisan group of 160 Members of 
Congress said that they have ``seen no reason during the reporting 
period for this year's TIP Report that would justify moving Malaysia 
back to the Watch List. If anything, the situation in Malaysia has 
grown worse. Malaysia has earned its place on Tier 3.'' \7\
    It has been alleged that the U.S. Government's impending decision 
to upgrade Malaysia to Tier 2 Watch List is aimed at avoiding 
complications that may arise in connection with the Obama 
administration being granted Trade Promotion Authority, which is 
``fast-track'' trade negotiating authority for free trade agreements 
such as the Trans-Pacific Partnership Agreement (``TPPA'').\8\ The 
latest Trade Promotion Authority legislation bars the U.S. from 
enacting trade deals with countries placed in Tier 3 of the rankings in 
the TIP report.\9\
    Any upgrade of Malaysia in the 2015 TIP report would therefore 
appear to be primarily motivated by a desire to allow Malaysia to be 
included in the TPPA. If so, the upgrade being contemplated is wholly 
misplaced and unconscionable. The safety and protection of hundreds, 
possibly thousands, of victims of human trafficking must ultimately be 
of greater value and importance than trade agreements and political 
expediency.
    Malaysia was shielded from the full effect of being downgraded in 
the 2014 TIP report when, in September 2014, President Barack Obama 
exempted Malaysia from U.S. sanctions that could have been imposed on 
countries designated as Tier 3.\10\ Malaysia should not continue to 
expect to be treated with kid gloves, and the 2015 TIP report should 
not exculpate Malaysia from the shortcomings in its legal obligations, 
both international and domestic, to protect victims of human 
trafficking.
    In coming to its determination concerning Malaysia's ranking, the 
2015 TIP report must not only consider the fact that measures have been 
formulated to address the scourge of human trafficking, but it must 
also evaluate their actual implementation and effectiveness. An upgrade 
should only be given as and when it is truly warranted, namely when 
tangible measures have been effectively implemented and positive 
results clearly demonstrated.
    An upgrade at this juncture would thus be a hollow victory of form 
over substance. The lives of an untold number of individuals bear 
silent testimony to the conclusion that Malaysia has yet to earn any 
upgrade.
    Amidst the vortex of economic and political issues engulfing the 
nation, the suffering and anguish of the victims of human trafficking, 
and their families, must not be forgotten.
          * * * * *

    \1\ ``Exclusive--U.S. upgrades Malaysia in annual human trafficking 
report: sources," Reuters U.K., 9 July 2015.
    \2\ ``2014 Trafficking in Persons Report (Malaysia)," Office to 
Monitor and Combat Trafficking in Persons, Web site of U.S. Department 
of State.
    \3\ ``Malaysia must do more to prosecute human traffickers, says 
top U.S. diplomat," The Malaysian Insider, 17 April 2015.
    \4\ ``Horrors unearthed at 28 sites used by human traffickers," The 
Star Online, 26 May 2015.
    \5\ ``Int'l disbelief over M'sian ignorance of `death' camps," 
Malaysiakini, 28 May 2015.
    \6\ ``Menendez Leads Bipartisan Senate Letter on Possible 
Unwarranted Ranking Upgrade for Malaysia in Human Trafficking Report," 
press release of U.S. Senator Bob Menendez of New Jersey issued on 15 
July 2015.
    \7\ ``160 Members of Congress Call on State Department to Not 
Upgrade Malaysia Ranking in 2015 Trafficking in Persons Report," Web 
site of Ways and Means Committee Democrats, U.S. House of 
Representatives, 17 July 2015.
    \8\ ``Exclusive: U.S. upgrades Malaysia in annual human trafficking 
report--sources," Reuters, 8 July 2015.
    \9\ (a) ``Exclusive: U.S. upgrades Malaysia in annual human 
trafficking report--sources," Reuters, 8 July 2015; (b) ``Obama Takes 
Unexpected Setback On Trade Agenda As Fast Track Passes Senate," 
Huffington Post, 22 May 2015.
    \10\ ``U.S. waives human trafficking sanctions on Malaysia and 
Thailand," Asian Correspondent, 19 September 2014.
                                 ______
                                 

         Response of Under Secretary Sarah Sewall to Question 
                      Submitted by Senator Corker

    Question. In 2014 the Government of India made nine requests to the 
Department of State to change the status of Indian nationals previously 
holding A-3 visas, and instead, provide them with A-2 visas. What had 
changed for those nine applicants to allow the Department to make that 
change?

    Answer. In 2014, the Department received nine requests from the 
Government of India to issue A-2 visas to persons previously holding A-
3 visas. These A-2 visas were scrutinized with particular care.
    As in all such cases, reviews of these cases focused on whether the 
duties to be performed by each applicant were consistent with all 
applicable requirements for 
A-2 visas. While generally a domestic worker would not qualify for an 
A-2 visa, those employed on mission premises or engaged in certain 
duties pertaining to the maintenance of the residence of the head of a 
diplomatic mission or the principal officer of a consular post may 
qualify for an A-2 visa. Such individuals are not considered personal 
employees of an individual foreign diplomat, but are considered 
employees of the foreign government, provided such individuals are 
accredited by their foreign government. These legal requirements are 
defined in 22 CFR 41.21(a)(1) as ``an alien holding an official 
position, other than an honorary official position, with a government 
or international organization and possessing a travel document or other 
evidence of intention to enter or transit the United States to transact 
official business for that government or international organization.''
                                 ______
                                 

        Responses of Under Secretary Sarah Sewall to Questions 
                Submitted by Senator Benjamin L. Cardin

    Question. Please provide recommendations to strengthen the 
Trafficking Victims Protection Act of 2000, and subsequent adopted 
amendments, to ensure that civil society, trafficking victims, and 
other stakeholders who are involved in antitrafficking efforts on the 
ground, in country have the most input into the rankings.

    Answer. The Trafficking Victims Protection Act (TVPA) is the legal 
framework that has made the annual Trafficking in Persons (TIP) Report 
such an effective tool in combating human trafficking across the globe. 
After 15 years, the TVPA-mandated TIP Report criteria and ranking 
system are increasingly understood by foreign governments, civil 
society, other stakeholders, and the media. That understanding has 
contributed to the importance and acceptance of the TIP Report as the 
gold standard in assessing government antitrafficking efforts.
    The Department actively seeks information from civil society, 
trafficking survivors, local NGOs, and others working on the front 
lines of the problem, whether they be government officials who want to 
see change in their country, activists who confront the crime wherever 
it occurs, or professionals providing services to victims across the 
globe. This input is especially valuable, as it ensures the accuracy 
and relevance of the TIP Report narratives, which best conveys the 
human face of these trafficking crimes. In addition, State Department 
officials in Washington and U.S. embassies around the world seek 
information from foreign government officials, and gather and evaluate 
information provided by international organizations, as well as 
information derived from a full array of open sources. The current 
legislation ensures significant input from those directly involved in 
on-the-ground efforts to eradicate human trafficking.
    We look forward to working with you and your staff to ensure the 
continued robust implementation of this critical law.

    Question. When, in the past, has the United States downgraded a 
country off Tier 2 Watch, then after 1 year upgraded that same country, 
on ``promises not action''? Please provide a list.

    Answer. The annual TIP Report assesses government efforts--not 
promises--to comply with the minimum standards for the elimination of 
trafficking in persons over a 1-year period. The governments of 
countries on Tier 3 do not comply with the minimum standards and are 
not making significant efforts to do so. The governments of countries 
on Tier 2 Watch List do not comply with the minimum standards, but are 
making significant efforts to do so and are countries for which the 
absolute number of trafficking victims is significant or increasing; 
there is a failure to provide evidence of increasing efforts to combat 
trafficking from the previous year; or the determination that such 
country is making significant efforts was based on its commitments to 
take additional steps over the next year. Annual tier rankings reflect 
a government's efforts during the most recent reporting period, 
compared to that government's own efforts in the prior year, not as 
compared to other countries. Promises to make efforts are not 
sufficient, as we look for a government to take steps toward meeting 
the minimum standards.
    Several countries' rankings have moved rapidly from Tier 2 Watch 
List, to Tier 3, and then sometimes back to Tier 2 Watch List over a 3-
year period. The rankings are--as required by law--based on government 
efforts to comply with the minimum standards over the three distinct 1-
year periods. Examples over the past 8 years include the countries 
below:
    China (2012-2014); Dominican Republic (2009-2011); Guinea-Bissau 
(2010-2012); Lebanon (2010-2012); Malaysia (2008-2010) and (2013-2015); 
Federated States of Micronesia (2010-2012); Niger (2008-2010); 
Turkmenistan (2010-2012); Venezuela (2010-2012).

    Question. In the 2015 Trafficking in Persons Report, Sri Lanka 
remained on the Tier 2 Watch List for the third consecutive year. In 
what precise ways is Sri Lanka falling short? What is preventing them 
from improving each year? Corruption? Lack of resources? Weak rule of 
law institutions? As we continue to build partnership capacity with the 
new government in Sri Lanka, how are we engaging with them on this 
issue?

    Answer. For the fourth consecutive year, authorities failed to 
convict any traffickers under Sri Lanka's trafficking statute. Rather, 
the government convicted one trafficker--a decrease compared with 12 in 
2013--under a procurement statute that provided lower penalties than 
the trafficking statute. Measures for victim protection were 
inadequate, as the government provided no specialized services to male 
victims, incarcerated sex trafficking victims, and mixed child victims 
with criminals in state institutions.
    In addition, reports of official complicity in trafficking offenses 
continued. There were allegations police and other officials accepted 
bribes to permit brothels to operate; some of the brothels exploited 
trafficking victims. Some recruitment agencies hired subagents who 
reportedly worked with officials to procure forged or modified 
documents, or genuine documents with falsified data, to facilitate 
travel abroad. Despite these reports, the government did not report any 
investigations, prosecutions, or convictions of government officials 
complicit in human trafficking offences.
    Continued lack of understanding of trafficking impeded government 
efforts to identify potential victims, particularly among Sri Lanka's 
migrant labor force, and adequately investigate the crime. The shortage 
of High Court judges trained to adjudicate the complex crime of human 
trafficking contributed to low conviction rates. The government's 
inability to regulate subagents, who often work for licensed foreign 
employment agents, contributed to the debt bondage and fraud 
experienced by some migrant workers, which subsequently increased their 
vulnerability to human trafficking.
    The government of former President Rajapaksa was widely perceived 
to be extremely corrupt. The current government has embarked on a good 
governance reform agenda. Indeed, one of the first acts of the new 
government during its ``100 Day'' agenda of good governance reform was 
passage of the Victims Protection Act, which can assist trafficking 
victims.
    Parliamentary elections this month will hopefully sustain this 
momentum and, if so, improvement in the government's adherence to the 
rule of law can be anticipated.
    The Department continues to regularly engage with the new 
government on human trafficking. One of the most important outcomes of 
this engagement was the Ministry of Justice obtaining Cabinet approval 
in October 2014 for the standard operating procedures for the 
identification and protection of trafficking victims. In addition, 
Embassy Colombo has directly engaged to urge the government to 
formulate a Strategic Action Plan for 2015-17 and ratify the 2000 U.N. 
Palermo Protocol. The Department also funded a 2014 assessment to 
ascertain reasons for the low number of identified victims, 
investigations, prosecutions, and convictions in Sri Lanka. Based upon 
the assessment's findings and recommendations, the Department will 
support future training and technical assistance to support members of 
the Ministry of Justice's national antitrafficking taskforce, 
representing 14 governmental departments and ministries, in addressing 
identified gaps to combat human trafficking.

    Question. Thailand--our close friend and ally--remains a Tier 3 
country. In my meetings with the Thai, they seem to want to make the 
necessary changes to fix this problem. Where is Thailand falling short? 
What is preventing them from improving each year? Corruption? Lack of 
understanding of the issue? Lack of resources?

    Answer. The Government of Thailand expressed its commitment to 
address human trafficking in 2014, but ultimately did not take 
sufficient action during the reporting period required for tangible 
progress on the vast human trafficking problem in the country. While 
the government investigated and prosecuted some cases against corrupt 
officials involved in trafficking, trafficking-related corruption 
continued to impede antitrafficking efforts. The numbers of 
investigations, prosecutions, convictions, and victims identified by 
the government all decreased in 2014.
    The government also did not proactively identify and protect many 
trafficking victims among fishing workers or irregular migrants. 
Although senior government officials repeatedly expressed their strong 
commitment to combat trafficking, the prosecution of journalists and 
advocates for alleged crimes in relation to their efforts to expose 
human trafficking, and statements discouraging media reporting on 
trafficking crimes, undermined some efforts to identify and assist 
victims and apprehend traffickers.
    We are encouraged by efforts by the Royal Thai Government in recent 
months to fight trafficking in persons, including efforts to create 
special units within criminal courts to adjudicate trafficking cases 
and the arrests of dozens possibly involved in human trafficking crimes 
and other abuses against migrants in southern Thailand. We will 
continue our strong engagement with the government to encourage 
tangible progress on these efforts and will assess them in the 2016 
Trafficking in Persons Report.

    Question. We continue to build partnership capacity with Thailand 
in a number of different areas. How are we engaging with them on this 
issue?

    Answer. We remain deeply concerned about human trafficking in 
Thailand, and continue to urge Thai Government officials at all levels 
to take bold steps to combat trafficking. Through Department 
engagement, we continue to encourage the Government of Thailand to use 
its updated legislative framework and whole-of-government approach to 
expand efforts to prosecute and convict traffickers and proactively and 
consistently identify and assist labor and sex trafficking victims 
among vulnerable populations. We also encourage the Thai Government to 
hold accountable officials who are complicit in trafficking and 
rigorously investigate and prosecute individuals, including those who 
commit forced labor abuses on fishing vessels or who commit sex 
trafficking crimes.
    We further engage the Thai Government and civil society 
organizations through our programming. We have provided the New Life 
Center Foundation $240,977 to support vulnerable tribal populations 
throughout Thailand with human rights, life skills, and vocational 
training and victims of trafficking with medical and mental health 
services, interpretation, vocational training, and reintegration 
assistance.
    We have supported the U.N. Office on Drugs and Crime with a grant 
of $500,000 to develop a new 50-person Anti-Human Trafficking Center 
under the Thai Department of Special Investigations, including 
providing a case management system, standard operating procedures, and 
training on victim care. We have also provided $350,000 to the NGO 
Solidarity Center and its efforts in Thailand to promote access to 
justice for trafficking victims; punishment of exploitative employers, 
recruitment agents, and other traffickers; and increased awareness of 
migrant worker exploitation. Finally, we support the NGO ZOE 
International with a $500,000 grant to enhance victim protection in 
Thailand by improving the quality and range of existing comprehensive 
services for child trafficking victims and children at risk of being 
trafficked, with a special focus on migrant populations and tribal 
communities--especially in northern Thailand.
    The Department leverages a broad array of resources beyond those of 
the Office to Monitor and Combat Trafficking in Persons. For example, 
the Department's Bureau of Population, Refugees and Migration (PRM) 
supports a program implemented by the International Organization for 
Migration (IOM) that helps build the capacity of national and local 
governments in Thailand and other Southeast Asian countries to address 
the needs of trafficking victims and other vulnerable migrants. IOM 
provides training to government officials to strengthen and 
institutionalize referral networks and protect and support vulnerable 
migrants; provides legal counseling and support for assisted voluntary 
returns; trains trafficking shelter staff on case management; and works 
with relevant ministries to train primary care providers on 
psychosocial and health problems. In addition to our work directly with 
the Government of Thailand, we work with international and 
nongovernmental organizations and civil society groups in the region to 
help address the causes of human trafficking and play a bigger role in 
preventing the problem, protecting victims, and convicting traffickers.
                                 ______
                                 

        Responses of Under Secretary Sarah Sewall to Questions 
                    Submitted by Senator Marco Rubio

    Question. For several years, antitrafficking activists have raised 
concerns about the politicization of the TIP report--namely that 
countries are sometimes upgraded undeservedly when it serves other 
political interests for the U.S. Government. Each time this happens, it 
sends a strong signal overseas that politics is more important than 
combating trafficking.

  <diamond> How can we ensure that addressing trafficking is a priority 
        in the future and not just seen as being in the way of other 
        U.S. Government priorities?

    Answer. The Department evaluates government efforts to combat 
trafficking based on criteria established under U.S. law--criteria that 
are independent of political developments. The President, Secretary 
Kerry, and the administration are committed to combating human 
trafficking, have made it a priority, and have demonstrated this 
through consistent high-level outreach and dedication of resources. As 
Secretary Kerry has noted, ``the United States is working with our 
international partners at every level to attack the root causes of 
trafficking, warn potential victims, put perpetrators behind bars, and 
empower survivors as they rebuild their lives.'' The State Department 
has dedicated staff working on human trafficking issues in Washington 
and at U.S. embassies around the world. The State Department has a 
specialized office, the Office to Monitor and Combat Trafficking in 
Persons, with staff that work year round to gather information and 
produce the annual Trafficking in Persons (TIP) Report. This report 
publicly analyzes the human trafficking problem in 188 countries and 
territories around the world and government efforts to comply with 
minimum standards for the elimination of trafficking in persons.
    Throughout the year, Department officials and staff encourage 
foreign governments to implement recommendations outlined in the TIP 
Report and raise human trafficking issues with foreign officials at 
senior levels of government. Secretary Kerry personally raises the 
issue with foreign leaders, as he recently did in Cuba and Malaysia. 
The State Department offers a variety of training and technical 
assistance to foreign governments, international organizations, and 
civil society groups to better address the human trafficking problem. 
U.S. officials highlight efforts to address human trafficking via 
public diplomacy initiatives, speeches, and media interviews. As human 
trafficking is a crime that intersects with a variety of other issues, 
including law enforcement capacity, corruption, labor rights, and 
migration, the Department integrates human trafficking priorities into 
all appropriate forums, with the goal of enhancing and deepening the 
global response to this crime.

    Question. What will be done to rebuild the credibility of the 
Trafficking in Persons Report given the widely held perception that 
diplomatic interests unrelated to trafficking led to inflated rankings 
for some countries?

    Answer. Over the past 15 years, the TIP Report has consistently 
drawn public attention to the problem of modern slavery and foreign 
government efforts to address it. The report is widely regarded as the 
gold standard for antitrafficking information. The Department strives 
to make the report as objective and accurate as possible, documenting 
the successes and shortcomings of government antitrafficking efforts 
measured against the minimum standards established under U.S. law. The 
attention that the report generates demonstrates the impact and 
importance of addressing this crime and protecting trafficking victims. 
The Department will continue to use the report to elevate the issue on 
the global stage, to guide its antitrafficking programming around the 
world, and to encourage foreign governments to implement recommended 
improvements in their efforts.

    Question. How do we address ambiguities in data, across all tiers, 
to ensure that countries are ranked consistently based on the same 
information provided? (For example, from the TIP report, Germany has 
not provided new data in several years, yet still holds a Tier 1 
ranking. They continue to work to combat trafficking, but without hard 
data, as in the case of Germany, how is ranking countries uniform? To 
give another example, India remains on Tier 2 and yet also did not 
provide law enforcement data for the 2014 reporting period.)

    Answer. Analysts work year round to gather and evaluate information 
from U.S. embassies, foreign government officials, nongovernmental and 
international organizations, and a full array of open sources, as well 
as from information submitted directly to the Department. Reliable 
information is hard to collect and verify for a variety of reasons, 
including the different definitions and laws against which law 
enforcement data is collected in each country, the challenging 
environments in which our NGO partners operate, and the difficulty of 
identifying victims. As a result, assessments contained in the TIP 
Report are not wholly reliant on any one source and they are focused on 
the totality of a government's efforts relative to its own past 
performance according to standards laid out in the Trafficking Victims 
Protection Act (TVPA).
    The Office to Monitor and Combat Trafficking in Persons works with 
colleagues at the U.S. embassies overseas and State Department staff in 
Washington--to include regional and functional bureaus--to draft and 
edit these assessments. They begin the narrative-writing process by 
rigorously applying the standards laid out in the TVPA and comparing 
the facts gathered over the reporting period to the government's 
efforts the previous year. The Department leverages its resources to 
ensure all applicable data is available for its analysis, but must 
assign tier rankings based on the information available for the 
relevant time period.

    Question. Worldwide, convictions dropped 23 percent last year from 
5,776 to 4,443. With an estimated 21 million victims worldwide, yet 
fewer than 45,000 victims reported to law enforcement last year and 
fewer than 4,500 convictions worldwide, it is a crime of very low risk 
to the traffickers.

  <diamond> What is the State Department doing now to work with 
        countries to increase that number in advance of next year's 
        report?

    Answer. We continue to be troubled by the low number of trafficking 
prosecutions, convictions, and victims identified relative to estimated 
incidence of the crime. Global law enforcement statistics reflect the 
Department's best estimate of prosecutions and convictions based in 
large part on data provided by foreign governments. State Department 
staff work to verify this data through conversations with government 
officials, media reports, and information provided by nongovernmental 
sources. Modern slavery is a hidden crime and, for the global effort to 
combat modern slavery to succeed, we need more data and research about 
its prevalence and root causes. The hidden nature of this crime 
directly contributes to the low level of prosecutions and convictions.
    Department efforts are robust and multifaceted to address global 
shortcomings in protecting trafficking victims and prosecuting and 
convicting traffickers. The Department publicly documents foreign 
government efforts to identify and protect victims and prosecute and 
convict traffickers in the annual TIP Report. Department officials 
engage foreign governments year round to identify the root causes of 
inadequate victim protection and law enforcement efforts, and urge 
authorities to take appropriate action to address deficiencies.
    The Office to Monitor and Combat Trafficking in Persons also 
administers foreign assistance to build foreign government's law 
enforcement and victim protection capacity. For example, we fund 
several databases with the goal of increasing coordination and learning 
more about number of victims and prosecutions globally. The 
International Organization for Migration (IOM) receives support to 
develop its database to track and analyze global trends in victim 
assistance, types of trafficking, and other trends in trafficking in 
persons. We also fund the United Nations Office on Drugs and Crime to 
continue to strengthen, expand, and disseminate the online Human 
Trafficking Case Law database.
    In addition, Department staff work with civil society and 
international organizations to build capacity to identify and assist 
victims. Through public diplomacy efforts, the State Department raises 
awareness of the problem. Governments are ultimately responsible for 
holding traffickers accountable and protecting trafficking victims and 
we will continue to urge all governments to fulfill this 
responsibility.

    Question. In the 2015 TIP report, Cuba was upgraded to Tier 2 Watch 
List after being a Tier 3 country since 2003. What was your role in the 
decision to move Cuba from Tier 3 to Tier 2 Watch List in the TIP 
report?

    Answer. The Office to Monitor and Combat Trafficking in Persons 
lies within the ``J'' Under Secretariat, and I am personally highly 
engaged throughout the year on its efforts to combat human trafficking. 
The TIP Office works with colleagues at U.S. embassies overseas and 
State Department staff in Washington--both regional and functional 
bureaus--to draft and edit narratives for 188 countries and territories 
around the world, including the United States. The TIP officers begin 
the narrative writing process by rigorously applying the standards laid 
out in the TVPA and comparing the facts gathered over the reporting 
period to the government's efforts the previous year. The TIP Office 
then recommends a ranking and presents that recommendation to the 
regional bureaus.
    In a few cases each year, the analysis is not immediately 
conclusive as to which tier ranking criteria, as spelled out in the 
TVPA, a country has met. In such cases, I and other senior Department 
officials offer assessments of the totality of government efforts 
measured against the minimum standards, informing the Secretary of 
State's designations of tier rankings for each country for the 
reporting period.
    In addition to working on the report, over the past year, I have 
also worked closely with the TIP Office to ensure effective use of 
their programming funds to help countries implement the recommendations 
laid out in the report, and worked with embassies and regional offices 
to coordinate our whole-of-government approach to combating human 
trafficking. I have raised U.S. concerns directly with officials from 
several governments to urge them to increase their efforts to combat 
modern slavery and engaged directly with Ambassadors in countries with 
critical trafficking issues to guarantee their personal commitment to 
the issue.

    Question. Are you aware of the TIP ranking upgrade being discussed 
during the administration's recently concluded negotiations with the 
Cuban Government?

    Answer. Cuba's TIP Report tier ranking was never discussed during 
negotiations with Cuba on the normalization of relations. The 
Department, however, has been seriously engaged with Cuba on 
trafficking in persons since 2010. This engagement increased following 
Cuba's accession to the Palermo Protocol in June 2013. Our serious and 
sustained engagement has included a digital video conference between 
experts from both governments in November 2013, J/TIP leadership 
traveling to Havana in 2014, and a Cuban delegation visiting Washington 
in March 2015 to discuss trafficking in persons. I raised trafficking 
in persons with Cuban officials myself on February 27, 2015.
    More specifically, engagement with the Cuban Government has 
included frank, in-depth discussion on the full scope of U.S. 
Government concerns, including our serious concern about human 
trafficking of Cubans, to include forced labor, both in Cuba and in 
other countries. We will continue robust diplomacy with the Cuban 
Government to encourage its efforts to address trafficking and enact a 
comprehensive antitrafficking law prohibiting all forms of the crime.

    Question. What specific actions did the Cuban Government take 
during 2014 to justify this upgrade?

    Answer. Cuba was upgraded from Tier 3 to Tier 2 Watch List in 2015 
because the Government of Cuba made significant efforts to comply with 
the minimum standards for the elimination of trafficking; but did not 
yet fully comply. A Tier 2 Watch List ranking clearly indicates there 
is much room for improvement in the government's antitrafficking 
efforts; an upgrade to the Watch List does not mean the government is 
doing enough to address human trafficking.
    The Government of Cuba demonstrated sustained efforts to prosecute 
sex trafficking cases and protect victims of sex trafficking, including 
by obtaining 13 convictions. The government provided extensive 
assistance to U.S. federal prosecutors in their investigation of a 
child sex tourist, leading to a conviction. In addition, the government 
cooperated with civil society groups on prevention and protection 
efforts and providing services for victims, including through the 
Federation of Cuban Women. The Federation received funds from 
international organizations to run centers that provide psychological 
treatment, health care, skills training, and assistance finding 
employment for victims harmed by violence, including sex trafficking. 
Cuban police continued to operate three facilities for child victims of 
crime where psychologists led the video recording of testimonies so 
child victims did not have to appear in court.
    The Government of Cuba also demonstrated a commitment to prevention 
efforts. Authorities maintained an office within the Ministry of 
Tourism charged with combating sex tourism and decreasing the demand 
for commercial sex acts. State media produced newspaper articles and 
television and radio programs to raise public awareness of sex 
trafficking.

    Question. Were any independent NGOs or international organizations 
consulted for information on Cuba's efforts to combat trafficking? If 
yes, then who?

    Answer. In the case of the 2015 TIP Report, as is customary, Cuba 
and trafficking experts worked year round to gather and evaluate 
information from U.S. missions, foreign government officials, 
nongovernmental and international organizations, and a full array of 
open sources, as well as information provided directly to the 
Department. The Department's assessment was not reliant on any one 
source, as we leverage our resources to ensure all applicable data is 
available for our analysis. For the safety of the organizations 
involved and to preserve the relationships we have built with them, we 
cannot provide the names of specific organizations from which we 
obtained information this year related to Cuba.

    Question. Can you please provide any internal documents detailing 
the decision to upgrade Cuba from Tier 3 to Tier 2 Watch List?

    Answer. State Department officials will not disclose internal 
Department deliberations, as doing so would undermine the Department's 
ability to ensure robust and candid internal discussions about 
countries and tier rankings as they relate to the minimum standards for 
the elimination of trafficking in persons. Such frank discourse is 
critical to the integrity of the process that is so vital to combating 
trafficking in persons.
                                 ______
                                 

        Responses of Under Secretary Sarah Sewall to Questions 
                  Submitted by Senator Robert Menendez

    Question. When did the State Department first engage with the Cuban 
Government regarding trafficking in persons?

    Answer. The Department has included Cuba in the annual Trafficking 
in Persons (TIP) Report since 2003, and has for many years raised the 
issue of trafficking in persons with the Cuban Government. The issue 
was first officially placed on the agenda of the bilateral talks held 
in conjunction with the Migration Talks in Havana in February 2010, and 
has been included on all subsequent agendas for bilateral talks held in 
connection with regularly scheduled Migration Talks.

    Question. Please provide a detailed timeline of engagement with the 
Cuban Government regarding any exchange of information relevant to 
assessing Cuba's ranking in the 2015 TIP report.

    Answer. Regarding engagement with Cuba on trafficking, beginning in 
2010, the Department regularly raised combating trafficking in persons 
as an official agenda item in bilateral Migration Talks and in other 
fora. Our engagement with the Government of Cuba intensified following 
Cuba's accession to the Palermo Protocol in June 2013.
    In a positive step toward greater transparency, in October 2013, 
the Government of Cuba released a 56-page report on Cuban 
antitrafficking initiatives. This report provided official data on 
investigations and prosecutions of sex trafficking offenses and 
convictions of sex traffickers.
    Subsequent serious and sustained engagement has included a digital 
video conference between experts from both governments in November 2013 
and officials from both the Office to Monitor and Combat Trafficking in 
Persons (TIP Office) and the Bureau of Western Hemisphere Affairs (WHA) 
traveling to Havana in 2014. The Cuban Government released a second 
annual report on its antitrafficking efforts on November 18, 2014. I 
raised concerns with Cuban officials in February 2015 about the 
government's efforts to combat human trafficking.
    The Government of Cuba sent a delegation to Washington in March 
2015 to discuss trafficking in persons with officials from my office, 
the TIP Office, and WHA. During in-depth talks, State Department 
officials discussed Cuba's antitrafficking efforts including concerns 
about forced labor and the gaps between Cuba's law and the U.N. Palermo 
Protocol. Representatives of several U.S. government agencies also 
discussed U.S. domestic efforts to address trafficking and best 
practices for prosecuting both labor and sex trafficking cases. Members 
of civil society in the United States discussed human trafficking 
trends and efforts to prevent it. During the visit, Cuban officials 
expressed interest in further exchanges of information and in 
cooperation on joint investigations of human trafficking with links to 
Cuba and the United States.
    Cuba sent two of its government antitrafficking experts to 
participate in an International Visitors Leadership Program in June 
2015. This was the first time any Cuban official participated in this 
program. Participants learned about U.S. perspectives on the problem 
and observed how U.S. Government officials and civil society address 
trafficking in persons.
    Most recently, Secretary Kerry raised concerns about human 
trafficking with the Cuban Foreign Minister.
    Regarding Cuba's ranking, Cuba was upgraded from Tier 3 to Tier 2 
Watch List in 2015 because the Government of Cuba made significant 
efforts to comply with the minimum standards for the elimination of 
trafficking; but did not yet fully comply. A Tier 2 Watch List ranking 
clearly indicates there is much room for improvement in the 
government's antitrafficking efforts; an upgrade to the Watch List does 
not mean the government is doing enough to address human trafficking.
    The Government of Cuba demonstrated sustained efforts to prosecute 
sex trafficking cases and protect victims of sex trafficking, including 
by obtaining 13 convictions. The government provided extensive 
assistance to U.S. federal prosecutors in their investigation of a 
child sex tourist, leading to a conviction. In addition, the government 
cooperated with civil society groups on prevention and protection 
efforts and providing services for victims, including through the 
Federation of Cuban Women. The Federation received funds from 
international organizations to run centers that provide psychological 
treatment, health care, skills training, and assistance finding 
employment for victims harmed by violence, including sex trafficking. 
Cuban police continued to operate three facilities for child victims of 
crime where psychologists led the video recording of testimonies so 
child victims did not have to appear in court.
    The Government of Cuba also demonstrated a commitment to prevention 
efforts. Authorities maintained an office within the Ministry of 
Tourism charged with combating sex tourism and decreasing the demand 
for commercial sex acts. State media produced newspaper articles and 
television and radio programs to raise public awareness of sex 
trafficking.

    Question. What, if any, third-party data was used to assess Cuba's 
ranking in the 2015 TIP report?

    Answer. The Department's Cuba and trafficking experts worked year 
round to gather and evaluate information from U.S. missions, foreign 
government officials, nongovernmental and international organizations, 
a full array of open sources, and other information provided to the 
Department.

    Question. Of the countries we have free trade agreements with, 
which have shown a sustained improvement in their TIP rankings after 
entry into force of the relevant free trade agreement?

    Answer. Countries' TIP Report tier rankings have varied widely 
following the entry into force of a trade agreement with the United 
States.
    The existence of a bilateral or regional free trade agreement is 
not taken into consideration during the annual TIP Report ranking 
process.

    Question. Given reports that the Castro regime takes 70 percent of 
the wages paid to its doctors and that Cuban doctors were forced to 
sign their life insurance policies over to the government, did the 
State Department consult with the WHO about these incidents? What 
information was provided? Does the State Department consider such 
activity to be forced labor?

    Answer. The issue of forced labor in Cuban foreign work missions 
has not been addressed adequately by the Cuban Government, and we 
continue to have concerns about indicators of trafficking in Cuba's 
medical missions abroad. These indicators include reports of 
withholding of passports, restrictions on movement, and threats to 
revoke medical licenses or retaliate against a participant's family 
members if they leave the medical mission. However, we have no 
conclusive evidence of systematic abuses or the existence of forced 
labor in this program.
    On April 8, Department staff from relevant bureaus and offices 
participated in a conference call with U.S. consular officers in 
Caracas, Brasilia, and Bogota to discuss their experiences with 
applicants in the Cuba Medical Parole Program. As noted in the TIP 
Report, these calls revealed some indicators of human trafficking, but 
did not reveal passport retention to be a consistent practice across 
all work missions. We also note that some participants in Cuba's 
foreign work missions state the postings in the program are voluntary 
and well-paid compared to jobs within Cuba. Furthermore, the January 
2013 decision by the Cuban Government to allow most Cuban citizens to 
travel freely without requiring an ``exit permit'' means that those 
professionals serving overseas now have other means to leave Cuba apart 
from participating in foreign work missions.
    We have not had recent discussions with the WHO about how it 
assesses the Government of Cuba's treatment of Cuban personnel in its 
overseas medical missions. We will continue, however, to leverage our 
resources to gather as much verified information as possible, including 
from the WHO, to assess Cuba's efforts in the 2016 TIP Report. We will 
also continue to pursue robust diplomacy to engage the Cuban Government 
on this issue and push for appropriate action.

    Question. Please describe the specific actions to combat 
trafficking in persons taken by the Malaysian Government, broken down 
by month, from April 1, 2014 to March 31, 2015.

    Answer. Throughout the 2015 TIP reporting year, the Government of 
Malaysia took tangible steps to combat human trafficking pursuant to 
the indicia mandated by the Trafficking Victims Protection Act (TVPA). 
Of particular significance, the government more than doubled its 
trafficking investigations from the previous year--186 as compared to 
89 in 2013--and substantially increased prosecutions--54 as compared to 
34 in 2013. The Malaysian Government also made significant efforts 
during the year to amend its existing antitrafficking law in order to 
reform its flawed victim protection regime. The government continued to 
disseminate informational brochures on trafficking indicators to law 
enforcement personnel and to produce public service announcements via 
radio and television conduits to educate the public.
    From March 2014 through March 2015, the Malaysian Government 
convened four Cabinet-level meetings to address pressing trafficking 
issues, including amendments to its existing antitrafficking law to 
reform its flawed victim protection regime. In September 2014, 
Malaysian officials consulted with civil society stakeholders regarding 
the proposed legislation. Although introduction of the draft 
legislation to Parliament was originally anticipated to take place in 
the fall, in November 2014 the Malaysian Government concluded that it 
was important that stakeholders be afforded ample opportunity to 
provide input and, in March 2015, the government formally resumed 
consultations with civil society regarding the proposed legislation. 
The Cabinet formally approved the draft legislation on April 3, 2015. 
(Although not during the reporting period, as expected, the legislation 
was tabled on April 7 before the lower house of Parliament, debated in 
May, passed on June 16, 2015, and subsequently passed by the upper 
house on July 6.)
    In addition, in August 2014 the Attorney General's Chambers 
Prosecutions Division issued a written directive requiring deputy 
public prosecutors to engage with human trafficking victims at least 2 
weeks preceding trial. This directive was intended to ensure that 
prosecutors familiarize themselves with victims' concerns and address 
the victims' anxieties to enable them to be compelling witnesses 
against traffickers. In October 2014, the government's antitrafficking 
council, MAPO, met with 20 companies in Penang--the heart of the 
electronics sector--to discuss the importance of combating forced 
labor. In addition, the Ministry of Home Affairs conducted outreach 
sessions in Shah Alam and Johor to raise awareness about the illegality 
of passport retention. During the reporting year, the Malaysian 
Government convicted and fined one employer for withholding 29 
employees' passports--the first case prosecuted since 2012. The 
Malaysian Government also published 15,000 brochures alerting law 
enforcement personnel to trafficking indicators, which they 
disseminated to enforcement agencies during the reporting year.

    Question. The 2015 TIP report states that, ``[p]rogress on the 2014 
pilot project to enable two NGOs to operate a government-owned facility 
for victims was set aside in favor of pursuing holistic change through 
legal amendments to Malaysia's Trafficking in Persons Act.''

  <diamond> Why was the Malaysian Government unable or unwilling to 
        persist with this pilot project?

    Answer. The Government of Malaysia adopted and worked to implement 
the pilot project during the reporting year. However, the pilot project 
was set aside due to a combination of logistical and financial 
constraints. During the initiation phase, the government discovered 
that some implementing partners lacked sufficient administrative 
overhead funding and managerial expertise to implement the project. Of 
three leading candidates, one NGO decided to withdraw after admitting a 
lack of capacity to run the shelter. Another capable NGO was concerned 
about its ability to provide necessary security. The third NGO found 
the amount of funding available insufficient to run a shelter after 
paying high overhead costs for administering the grant. For all three 
leading candidates, the government's subcontractor model for the 
program notably led to exorbitant administrative costs that reduced the 
amount of funding available for shelter management. NGOs nonetheless 
continue to provide targeted support in government-managed shelters, 
including psychosocial counseling and health services.

    Question. What are the specific problems that prevented the 
Malaysian Government from setting up the pilot project while 
simultaneously ``pursuing holistic change through legal amendments to 
Malaysia's Trafficking in Persons Act''?

    Answer. The Malaysian Government focused its efforts on amending 
the law to expand the role of NGOs in providing protection and 
assistance to trafficking victims because of the aforementioned 
challenges with this pilot project and because this legislative change 
would have greater impact for trafficking victims. Pursuant to the new 
amendments, NGOs will be able to operate their own shelters for 
trafficking victims--an alternative that may better serve the needs of 
victims and prove more sustainable than the pilot project. The amended 
laws and ongoing U.S. Government-funded trainings aim to increase the 
capacity of NGOs in Malaysia to provide broader protection for 
trafficking victims.

    Question. Did the two NGOs in question support the Malaysian 
Government's decision to set aside the pilot project?

    Answer. As noted above, the three leading candidates determined not 
to participate in the pilot project for the reasons stated. The 
Department does not have further information about the views of these 
NGOs regarding the Malaysian Government's decision to set aside the 
pilot project.

    Question. The 2015 TIP report states that the Malaysian Government 
``adopted a pilot project to allow a limited number of victims to work 
outside government facilities.'' How many victims participated in this 
pilot program?

    Answer. The Malaysian Government adopted the pilot project in 
cooperation with an international hotel chain to provide temporary 
employment to some trafficking victims. Four victims were approved to 
participate in this program and the hotel chain agreed to hire them in 
December 2014. The Department recently learned that, due to medical 
concerns, two participants were unable to participate in the initial 
program, and the remaining two participants chose to depart the country 
prior to receiving work permits, which take an average of 3 months to 
obtain.
    While the project was ultimately unsuccessful, the effort revealed 
a number of challenges the Malaysian Government needs to address as it 
shifts its focus from the pilot project to allowing all trafficking 
victims to work, as provided for in the new legislation. These 
challenges include matching victims' skillsets to employer needs, 
determining who will bear costs of required medical tests, and 
providing support while victims undergo an approval process to obtain 
employment.
    The insights gleaned from this process will also inform the 
development of regulations to implement the amendments. In assessing 
lessons learned from this project, the government now understands that 
the new law's implementing regulations must address medical treatment 
for communicable diseases and the length of time required to obtain a 
work permit for victims. We expect that they will apply these lessons 
to future efforts. These and other actions, or lack thereof, will be 
assessed in the coming TIP Report.

    Question. When did the pilot program begin operations? When did the 
first victim participate in the program?

    Answer. The Government of Malaysia approved the program, four 
initial beneficiaries were selected to participate, and the hotel chain 
agreed to hire them in December 2014. While Malaysia was ultimately 
unable to successfully implement the pilot project, the effort revealed 
a number of challenges the Malaysian Government needs to address as it 
shifts its focus from the pilot project to allowing all trafficking 
victims to work--something the Department has consistently recommended 
and that is provided for in the new legislation.

    Question. What are the Malaysian Government's plans for expanding 
participation in the program?

    Answer. If implemented, the amendments to the 2007 antitrafficking 
law will authorize the right to work for all trafficking victims in 
Malaysia. The partner hotel chain remains open to hiring trafficking 
victims, and other international hotel brands expressed support in 
December 2014. The Malaysian Government is currently drafting 
implementing regulations for the new amendments, including those that 
will govern how to extend work rights to trafficking victims across the 
country. The 2014 pilot project identified a number of challenging 
obstacles to victim employment, which the government is more equipped 
to address. As the implementation guidelines are developed, Embassy 
Kuala Lumpur will assist the Malaysian Government--as it did during the 
2014 pilot project--to identify willing employers for trafficking 
victims, and will re-engage private sector partners throughout the 
hotel industry.

    Question. The release of this year's TIP report was the latest in 
its history. Please account for this delay in terms that could be 
documented: i.e., if the primary reason for the delay was Secretary 
Kerry's travel agenda, when was the final version of the report 
forwarded to him?

    Answer. It was very important to the Secretary to be present for 
the launch event of the TIP Report and celebrate the 2015 TIP Report 
Heroes. This year's TIP Report was not released in June due to a number 
of events related to the Secretary's schedule. The Secretary broke his 
leg in late May, affecting his schedule for the weeks that immediately 
followed. In addition, the Secretary presided over talks in Austria on 
the Iran nuclear agreement in June that extended into July.

    Question. Malaysia was downgraded to Tier 3 in the 2014 report. 
Please document the timeline of the steps Malaysia took to respond to 
the recommendations in that report. Specifically, explain which actions 
credited to Malaysia for this year's report took place in each of the 
months between the release of the 2014 report and the 2015 report.

    Answer. During the 2015 reporting period, the Malaysian Government 
took steps to address recommendations made in the 2014 TIP Report. One 
recommendation was that the Malaysian Government should amend its 
antitrafficking law to allow trafficking victims to travel, work, and 
reside outside government facilities, including while under protection 
orders. From March 2014 through March 2015, the government convened 
four Cabinet-level meetings to address pressing trafficking issues, 
inclusive of amendments to its existing antitrafficking law to reform 
its flawed victim protection regime. In September 2014 and March 2015, 
Malaysian officials consulted with civil society stakeholders regarding 
the proposed legislation, which was formally approved by the Cabinet on 
April 3, 2015.
    The 2014 TIP Report recommended that prosecutors increase their 
efforts to prepare victims for participation as witnesses in human 
trafficking trials. During the reporting year, Malaysian officials 
issued a written directive requiring deputy public prosecutors to 
engage with trafficking victims at least 2 weeks preceding a trial to 
familiarize themselves with victims' needs and concerns and mitigate 
their anxieties related to testifying in judicial proceedings.
    Furthermore, the 2014 TIP Report encouraged the government to 
increase efforts to investigate and prosecute trafficking offenses and 
convict and punish traffickers. The Malaysian Government more than 
doubled its trafficking investigations from the previous year--186 as 
compared to 89 in 2013--and substantially increased its prosecutions--
54 as compared to 34 in 2013. Although the government did convict three 
traffickers, this was a decrease compared to the convictions obtained 
in the previous year. The 2014 TIP Report also recommended that the 
government enforce the law that prohibits employers from confiscating 
passports. During the reporting period, Malaysia convicted and fined an 
employer for withholding 29 employees' passports.
    Throughout the 2015 reporting cycle, the Malaysian Government 
continued robust antitrafficking training for nearly 700 law 
enforcement personnel, which included the distribution of 15,000 
informational brochures on human trafficking. These efforts responded 
to the 2014 Report recommendation to increase training for officials on 
the effective handling of sex and labor trafficking cases.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
